<html>
<title> - FAST ACT IMPLEMENTATION: IMPROVING THE SAFETY OF THE NATION'S ROADS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]






  FAST ACT IMPLEMENTATION: IMPROVING THE SAFETY OF THE NATION'S ROADS

=======================================================================

                                (115-21)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                          HIGHWAYS AND TRANSIT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 18, 2017

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure







[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]








         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

26-374 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
     
     
     
     
     
     
     
     
     
     
     
     
     
     
     
     
             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman

DON YOUNG, Alaska                    PETER A. DeFAZIO, Oregon
JOHN J. DUNCAN, Jr., Tennessee,      ELEANOR HOLMES NORTON, District of 
  Vice Chair                         Columbia
FRANK A. LoBIONDO, New Jersey        JERROLD NADLER, New York
SAM GRAVES, Missouri                 EDDIE BERNICE JOHNSON, Texas
DUNCAN HUNTER, California            ELIJAH E. CUMMINGS, Maryland
ERIC A. ``RICK'' CRAWFORD, Arkansas  RICK LARSEN, Washington
LOU BARLETTA, Pennsylvania           MICHAEL E. CAPUANO, Massachusetts
BLAKE FARENTHOLD, Texas              GRACE F. NAPOLITANO, California
BOB GIBBS, Ohio                      DANIEL LIPINSKI, Illinois
DANIEL WEBSTER, Florida              STEVE COHEN, Tennessee
JEFF DENHAM, California              ALBIO SIRES, New Jersey
THOMAS MASSIE, Kentucky              JOHN GARAMENDI, California
MARK MEADOWS, North Carolina         HENRY C. ``HANK'' JOHNSON, Jr., 
SCOTT PERRY, Pennsylvania            Georgia
RODNEY DAVIS, Illinois               ANDRE CARSON, Indiana
MARK SANFORD, South Carolina         RICHARD M. NOLAN, Minnesota
ROB WOODALL, Georgia                 DINA TITUS, Nevada
TODD ROKITA, Indiana                 SEAN PATRICK MALONEY, New York
JOHN KATKO, New York                 ELIZABETH H. ESTY, Connecticut, 
BRIAN BABIN, Texas                   Vice Ranking Member
GARRET GRAVES, Louisiana             LOIS FRANKEL, Florida
BARBARA COMSTOCK, Virginia           CHERI BUSTOS, Illinois
DAVID ROUZER, North Carolina         JARED HUFFMAN, California
MIKE BOST, Illinois                  JULIA BROWNLEY, California
RANDY K. WEBER, Sr., Texas           FREDERICA S. WILSON, Florida
DOUG LaMALFA, California             DONALD M. PAYNE, Jr., New Jersey
BRUCE WESTERMAN, Arkansas            ALAN S. LOWENTHAL, California
LLOYD SMUCKER, Pennsylvania          BRENDA L. LAWRENCE, Michigan
PAUL MITCHELL, Michigan              MARK DeSAULNIER, California
JOHN J. FASO, New York
A. DREW FERGUSON IV, Georgia
BRIAN J. MAST, Florida
JASON LEWIS, Minnesota

                                  (ii)

                  Subcommittee on Highways and Transit

                     SAM GRAVES, Missouri, Chairman

DON YOUNG, Alaska                    ELEANOR HOLMES NORTON, District of 
JOHN J. DUNCAN, Jr., Tennessee       Columbia
FRANK A. LoBIONDO, New Jersey        JERROLD NADLER, New York
DUNCAN HUNTER, California            STEVE COHEN, Tennessee
ERIC A. ``RICK'' CRAWFORD, Arkansas  ALBIO SIRES, New Jersey
LOU BARLETTA, Pennsylvania           RICHARD M. NOLAN, Minnesota
BLAKE FARENTHOLD, Texas              DINA TITUS, Nevada
BOB GIBBS, Ohio                      SEAN PATRICK MALONEY, New York
JEFF DENHAM, California              ELIZABETH H. ESTY, Connecticut
THOMAS MASSIE, Kentucky              JARED HUFFMAN, California
MARK MEADOWS, North Carolina         JULIA BROWNLEY, California
SCOTT PERRY, Pennsylvania            ALAN S. LOWENTHAL, California
RODNEY DAVIS, Illinois               BRENDA L. LAWRENCE, Michigan
ROB WOODALL, Georgia                 MARK DeSAULNIER, California
JOHN KATKO, New York                 EDDIE BERNICE JOHNSON, Texas
BRIAN BABIN, Texas                   MICHAEL E. CAPUANO, Massachusetts
GARRET GRAVES, Louisiana             GRACE F. NAPOLITANO, California
BARBARA COMSTOCK, Virginia           DANIEL LIPINSKI, Illinois
DAVID ROUZER, North Carolina         HENRY C. ``HANK'' JOHNSON, Jr., 
MIKE BOST, Illinois                  Georgia
DOUG LaMALFA, California             LOIS FRANKEL, Florida
BRUCE WESTERMAN, Arkansas            CHERI BUSTOS, Illinois
LLOYD SMUCKER, Pennsylvania, Vice    FREDERICA S. WILSON, Florida
Chair                                PETER A. DeFAZIO, Oregon (Ex 
PAUL MITCHELL, Michigan              Officio)
JOHN J. FASO, New York
A. DREW FERGUSON IV, Georgia
BILL SHUSTER, Pennsylvania (Ex 
Officio)

                                 (iii)















                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................   vii

                               WITNESSES

Walter C. ``Butch'' Waidelich, Jr., Acting Deputy Administrator, 
  Federal Highway Administration:

    Testimony....................................................     4
    Prepared statement, submitted jointly with Mrs. Jefferson and 
      Mr. Danielson..............................................    45
    Responses to questions for the record submitted by the 
      following Representatives:

        Hon. Lou Barletta of Pennsylvania........................    56
        Hon. Peter A. DeFazio of Oregon..........................    56
        Hon Peter A. DeFazio of Oregon, on behalf of Hon. John 
          Garamendi of California................................    58
        Hon. Elijah E. Cummings of Maryland......................    59
        Hon. Daniel Lipinski of Illinois.........................    60
Daphne Y. Jefferson, Deputy Administrator, Federal Motor Carrier 
  Safety Administration:

    Testimony....................................................     4
    Prepared statement, submitted jointly with Mr. Waidelich and 
      Mr. Danielson..............................................    45
    Responses to questions for the record submitted by the 
      following Representatives:

        Hon. Sam Graves of Missouri..............................    61
        Hon. Peter A. DeFazio of Oregon..........................    62
        Hon. Lou Barletta of Pennsylvania........................    62
        Hon. Elijah E. Cummings of Maryland......................    64
        Hon. Alan S. Lowenthal of California.....................    65
Jack Danielson, Acting Deputy Administrator, National Highway 
  Traffic Safety Administration:

    Testimony....................................................     4
    Prepared statement, submitted jointly with Mr. Waidelich and 
      Mrs. Jefferson.............................................    45
    Responses to questions for the record submitted by the 
      following Representatives:

        Hon. Sam Graves of Missouri..............................    66
        Hon. Elijah E. Cummings of Maryland......................    66
        Hon. Garret Graves of Louisiana..........................    66
        Hon. Daniel Lipinski of Illinois.........................    67
Hon. T. Bella Dinh-Zarr, Member, National Transportation Safety 
  Board:

    Testimony....................................................     4
    Prepared statement...........................................    68
    Responses to questions for the record submitted by the 
      following Representatives:

        Hon. Sam Graves of Missouri..............................    82
        Hon. Elijah E. Cummings of Maryland......................    83

          PREPARED STATEMENTS PREPARED BY MEMBERS OF CONGRESS

Hon. Elijah E. Cummings of Maryland..............................    42

                       SUBMISSIONS FOR THE RECORD

Hon. Steve Cohen, a Representative in Congress from the State of 
  Tennessee, submission of the following:

    National Transportation Safety Board, Highway Accident Brief, 
      Passenger Vehicle/School Bus Collision and Roadway 
      Departure, Houston, TX, Accident No. HWY15FH010, NTSB/HAB-
      16/05......................................................    85
    National Transportation Safety Board, Highway Accident Brief, 
      School Bus Roadway Departure, Anaheim, CA, Accident No. 
      HWY14FH010, NTSB/HAB-16/06.................................   100
    National Transportation Safety Board, Highway Accident Brief, 
      Collision of Two School Buses with Subsequent Rollover, 
      Knoxville, TN, Accident No. HWY15FH002, NTSB/HAB-16/04.....   121
    Accident Report of the National Transportation Safety Board, 
      ``School Bus and Truck Collision at Intersection, New 
      Chesterfield, New Jersey,'' February 16, 2012, NTSB/HAR-13/
      01, PB2013-106638 \1\
    Accident Report of the National Transportation Safety Board, 
      ``Multivehicle Collision, Interstate 44 Eastbound, Gray 
      Summit, Missouri,'' August 5, 2010, NTSB/HAR-11/03, PB2011-
      916203 \2\
Letter of May 8, 2017, from Peter Osborn, New York Division 
  Administrator, Federal Highway Administration, to Matthew 
  Driscoll, Commissioner, New York State Department of 
  Transportation, submitted by Hon. John J. Faso, a 
  Representative in Congress from the State of New York..........    37
Jack Danielson, Acting Deputy Administrator, National Highway 
  Traffic Safety Administration, response to requests for 
  information from Hon. John J. Faso of New York and Hon. Doug 
  LaMalfa of California 




                        ADDITIONS TO THE RECORD

Prepared statement from the American Association of State Highway 
  and Transportation Officials...................................   131

----------
\1\ This 113-page report can be found online at the National 
Transportation Safety Board's website at https://www.ntsb.gov/
investigations/AccidentReports/Reports/HAR1301.pdf.
\2\ This 104-page report can be found online at the National 
Transportation Safety Board's website at https://www.ntsb.gov/
investigations/AccidentReports/Reports/HAR1103.pdf.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 
  FAST ACT IMPLEMENTATION: IMPROVING THE SAFETY OF THE NATION'S ROADS

                              ----------                              


                         TUESDAY, JULY 18, 2017

                  House of Representatives,
              Subcommittee on Highways and Transit,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10 a.m., in room 
2167, Rayburn House Office Building, Hon. Sam Graves (Chairman 
of the subcommittee) presiding.
    Mr. Graves of Missouri. We will call the subcommittee to 
order. And I want to welcome everybody here. Good morning.
    We all share the same critical goal of reducing the number 
of fatalities and serious injuries on our Nation's roads. Over 
the past years, Federal transportation safety programs, along 
with other factors, have played an important role in reducing 
these numbers. When this committee was developing its surface 
transportation bill a couple years ago, improving safety on our 
Nation's roads was one of the very key principles. Today, we 
are here to examine the implementation of the safety provisions 
in the FAST Act [Fixing America's Surface Transportation Act].
    The FAST Act is the first long-term surface transportation 
bill in a decade. It improves our Nation's infrastructure. It 
reforms Federal surface transportation programs and refocuses 
those programs on addressing national priorities. And it 
encourages innovation to make the surface transportation system 
safer and more efficient. The FAST Act also provides our non-
Federal partners with important resources to improve the safety 
of our Nation's roads. These resources include but aren't 
limited to: increasing funding for Federal transportation 
safety programs across the modal administrations; reforming 
certain NHTSA safety programs to reduce barriers to State 
eligibility; improve incentives for roads or for States to 
adopt laws and regulations to improve highway safety; 
consolidate nine existing FMCSA grant programs into four; 
streamlining the program requirements to reduce administrative 
cost and improve the flexibility for the States; and improving 
safety by incentivizing the adoption of innovative truck and 
bus safety technologies and accelerated implementation of 
safety regulations that are required by law. So I look forward 
to hearing from our witnesses on the progress that their 
agencies are making in implementing the safety provisions of 
the FAST Act.
    And I thank you all for being here today. I know some of 
you traveled farther than others.
    And, with that, I will turn to Ranking Member Norton for 
her opening statement.
    Ms. Norton. Thank you very much, Mr. Chairman.
    And, first, I want to say how much I appreciate this 
hearing on improving the safety of the Nation's roads. This is 
an issue of critical importance because safety has not been 
improving. Just yesterday, I was on the floor for the approval 
of safety for the Metro system here. Safety is becoming a 
critical concern in transportation.
    Since I have been ranking member, our Subcommittee on 
Highways and Transit has spent considerable time on issues of 
critical importance, like technology and innovation and 
automation. As important as those subjects are, I hope we can 
have more hearings on safety. We have had two hearings on 
public safety now, and I hope this is another one in what will 
be a series. I have written requesting a hearing on the 
oversight and monitoring of motor carrier safety under the CSA 
program, for example. There are a number of other topics 
regarding safety that are worthy of exploration.
    Mr. Chairman, motor vehicle crashes should be negative, 
should be going down, decreasing in numbers. You know, that is 
the American way. Either we want things to go up every year, 
like the economy, or we want things to go down, like crashes. 
So I was astounded that, in preparing for this hearing, to 
learn that pedestrian fatalities have increased--that is an 
increase I am not looking for--by almost 10 percent, 9.5 
percent in 2015. They are at their highest level since 1996. 
What is wrong with us? What is wrong with what we have been 
doing that these figures have been getting worse?
    I have particular concerns in the District of Columbia 
where pedestrian deaths represent 56 percent of all traffic 
fatalities. We are asking people to get out and walk, and then 
you take your life in your hands as you cross the street. The 
figures are continuing to get worse. The first 9 months of 
2016, we saw an 8 percent higher rate than the figures I have 
just quoted in 2015, which were already 10 percent higher 
themselves. So we really can't sit idly by. I think the public 
wants us to do something. Obviously, these are matters at the 
local level and State level, but they are surely matters here 
for this technology.
    Now, I am pleased at technology at this hearing. Technology 
is an important piece of how we would enhance safety, in my 
regard. And I am fascinated by the work being done to advance 
innovative solutions for future generations to avoid needless 
loss of life. But full automation, which I believe would reduce 
needless deaths, is really not around the corner, as exciting 
as it is. The three leading causes of death in 2015 were 
responsible for two-thirds of all deaths, and they were all 
based on human factors. I am not sure technology--what 
technology will do about them. We haven't got to this in 
technology yet. Because these factors were--almost two-thirds 
were because of alcohol impairment, speeding--maybe we can do 
something about that with innovation--and distracted driving.
    So the question before the House, as they say, is, what 
steps can be taken now, right now, to bring down auto 
fatalities and injuries to ensure that, when you get behind a 
car or a bus or a truck, for example, that you have the 
training and education necessary to take on that 
responsibility, safety.
    One of my own major issues as ranking member has been more 
robust commercial truck and bus driver training. Buses, but 
particularly trucks, are an increasing mode of transportation 
in our country. Congress first directed the Department of 
Transportation to develop training standards for commercial 
motor vehicle drivers in 1991. That was over 25 years ago. 
Between 1991 and 2016, the Department failed to produce a rule 
that provided adequate training standards for drivers. All of 
that time, no rule.
    Late last year, though, the Department of Transportation 
put out a new rule based on negotiated rulemaking. I was very 
hopeful, given the negotiated rulemaking. But this rule failed 
to include a minimum number of hours behind-the-wheel training. 
So it is all up to the trucking companies how much training 
they get. And the Congress of the United States is taking no 
responsibility for those trucks out there where people are 
driving without adequate training to drive a truck. That rule, 
which did not have a minimum amount of hours, was the really a 
missed opportunity and great disappointment.
    So I am hoping that today's hearing will be a change from 
our endless request, which has become the norm, for exemptions 
and calls to block DOT safety rules. There is room for 
improvement in many rules of the Federal Government. But rather 
than cause to simply eliminate regulations, we should be 
challenging industry, Department of Transportation, 
stakeholders, all to be more creative and work toward the 
common goal to utilize their own resources and imagination to 
create a more safe road for all.
    So I am very pleased that we have a National Transportation 
Safety Board member here. For 50 years, the NTSB has been the 
leader in setting a high bar for safety and informing Congress 
of what policy solutions will generate the greatest safety 
improvements. But bear in mind, the NTSB does not have 
enforcement authority. It is up to this committee and to the 
Congress of the United States.
    Thank you very much Mr. Chairman.
    Mr. Graves of Missouri. Now, I am pleased to have Ranking 
Member DeFazio. Would you like to make an opening statement?
    Mr. DeFazio. Thank you, Mr. Chairman. I am pleased we are 
having this hearing today. It is important to hear--in this 
case, I am pleased we are hearing, actually--from a career 
staff as opposed to political hacks. So perhaps we will get 
some good information here today.
    You know, we seem to be going the wrong way when it comes 
to surface transportation. In particular, we had a spike in 
fatalities. We have twice the rate of fatalities of other high-
income countries. You know, obviously, there are some issues 
here. I believe part of the problem is the state of our 
infrastructure, in places where it is obsolete, obsolescent, or 
deteriorated, that that contributes to the fatality rate. And 
so the lack of investment is part of the problem, and 
obviously, the same lack of investment has led to reductions in 
our safety programs of FHWA, FMCSA, and NHTSA are all part and 
parcel funded through the same process, which, is, you know, 
the Highway Trust Fund, which is underfunded so that I believe 
the solution both for rebuilding our infrastructure and for 
enhanced safety comes with more robust funding.
    Also, you know, we need to, you know, have sensible 
regulations. But there is, I think, a little bit--in this 
particular administration, they are going overboard in terms of 
restraining reasonable and needed safety regulations. And I 
fear that they will continue to go down that path.
    I mean, I did support, in the FAST Act, you know, 
provisions to require that they revisit and retool some of the 
CSA system. But we want to take corrective action. We want to 
update it. We want to make it accurate. And we want it to be a 
tool that will be useful in terms of identifying areas or 
operators who need more attention or perhaps even shouldn't be 
allowed to operate. But, you know, we can't just throw out the 
whole concept of having a better system, which I fear this 
administration will do.
    So, hopefully, today we will hear some ideas from these 
career folks, and hopefully Congress will see fit to include 
that in its oversight and future actions.
    Thank you, Mr. Chairman.
    Mr. Graves of Missouri. Thank you, Ranking Member DeFazio.
    With that, I will welcome our panel and introduce them.
    We have Mr. Walter Waidelich, who is the Acting Deputy 
Administrator at the Federal Highway Administration. We have 
Mrs. Daphne Jefferson, who is the Deputy Administrator at the 
Federal Motor Carrier Safety Administration. We have Mr. Jack 
Danielson, who is the Acting Deputy Administrator at the 
National Highway Traffic Safety Administration. And we have the 
Honorable T. Bella Dinh-Zarr, who is a member of the National 
Transportation Safety Board.
    With that, I would ask unanimous consent that all 
witnesses' full statements be included in the record.
    Without objection, that is so ordered.
    And since your written testimonies have been made a part of 
the record, the committee would ask that you limit your summary 
at least to 5 minutes or be pretty close.
    And, with that, Mr. Waidelich, you can begin.

TESTIMONY OF WALTER C. ``BUTCH'' WAIDELICH, JR., ACTING DEPUTY 
   ADMINISTRATOR, FEDERAL HIGHWAY ADMINISTRATION; DAPHNE Y. 
 JEFFERSON, DEPUTY ADMINISTRATOR, FEDERAL MOTOR CARRIER SAFETY 
 ADMINISTRATION; JACK DANIELSON, ACTING DEPUTY ADMINISTRATOR, 
  NATIONAL HIGHWAY TRAFFIC SAFETY ADMINISTRATION; AND HON. T. 
 BELLA DINH-ZARR, MEMBER, NATIONAL TRANSPORTATION SAFETY BOARD

    Mr. Waidelich. Chairman Graves, Ranking Member Norton, and 
the members of the subcommittee, thank you for inviting me 
today to talk about FAST Act implementation and ensuring the 
safety of our roads.
    As I am sure you hear often today, safety is the 
Department's number one priority. At the Federal Highway 
Administration, we strive every day to ensure that our 
highways, bridges, and tunnels are safe and reliable for the 
American people. The recent increase in highway fatalities, 
after decades of decline, underscores the importance of the 
coordinated efforts of the agencies represented here today to 
address road safety.
    FHWA is a proud member of the Road to Zero Coalition, and 
we look forward to working with our sister agencies and this 
committee on the critical vision of achieving zero fatalities 
by 2050.
    The cornerstones of our efforts to eliminate fatalities and 
serious injuries on all public roads is our Highway Safety 
Improvement Program, which provides an estimated average of 
$2.6 billion of funding per year over the course of the FAST 
Act.
    Through the HSIP and other efforts, FHWA emphasizes a data-
driven, performance-based approach to save lives. We estimate 
that highway safety improvement projects result in $4 to $7 of 
benefits for every dollar invested. Projects funded through the 
HSIP must be consistent with the States' strategic highway 
safety plan which is developed by States in coordination with 
Federal, local, and Tribal partners. These plans establish each 
State's individualized safety goals, objectives, and key 
emphasis areas, and integrate the four E's of highway safety: 
engineering, education, enforcement, and emergency medical 
services.
    A growing number of States are using HSIP funds for 
projects on locally owned and rural roads, and more local 
agencies are participating in the development of strategic 
highway safety plans.
    This local investment is critical to our Road to Zero goal. 
And in 2015, 19 percent of the U.S. population lived in rural 
areas, but rural road fatalities accounted for 49 percent of 
all road fatalities.
    In addition to the HSIP, the FAST Act also continued 
performance management standards first enacted in MAP-21. One 
of our primary achievements in recent years has been 
implementing these performance management standards for safety. 
Beginning this summer, States and metropolitan planning 
organizations will set data-driven annual safety performance 
targets for the first time. They will measure, in part, the 
number and rate of fatalities and serious injuries. And they 
will use that data to inform future investment choices.
    FHWA, in coordination with NHTSA, has provided significant 
resources to advance implementation of the safety performance 
management requirements, including delivering target-setting 
workshops in 45 States. In addition to implementing these core 
Federal aid programs, FHWA is also looking to the future of 
safety innovation and research. Through our Every Day Counts 
initiative, we encourage States to adopt proven but 
underutilized safety countermeasures.
    We are also working with State partners to expand vehicle-
to-infrastructure or V2I communications technology, which is 
now eligible for funding under major Federal aid highway 
programs. FHWA, in coordination with our sister agencies, is 
developing a vision statement clarifying our important role in 
advancing connected automated technologies and preparing our 
national roadway infrastructure for an automated vehicle 
future. When leveraged with V2I communications technology, 
connected automation has the potential to deliver significant 
safety, mobility, and environmental benefits.
    Finally, FHWA continues to invest resources to identify the 
next generation of safety technology, including through our 
many research programs run out of the Turner-Fairbank Highway 
Research Center.
    While I focus my remarks today on FHWA's programs with 
safety in the name, FHWA strives to incorporate safety in the 
entire $44 billion Federal-aid highway program so all Americans 
can benefit from safe and reliable roads.
    Mr. Chairman, I want to thank you again for the opportunity 
to appear before you on these critical issues, and I look 
forward to answering your questions.
    Mr. Graves of Missouri. Now we will hear from Mrs. 
Jefferson.
    Mrs. Jefferson. Good morning.
    Mr. Graves of Missouri. Good morning.
    Mrs. Jefferson. Chairman Graves, Ranking Member Norton, and 
members of the subcommittee, thank you for inviting me to 
testify about the Federal Motor Carrier Safety Administration's 
work to improve truck and bus safety and implement the FAST 
Act. It is an honor to testify alongside my colleagues Jack 
Danielson and Butch Waidelich.
    FMCSA's mission is to save lives by preventing crashes. We 
oversee more than half a million truck and bus companies and 
almost 5 million active commercial driver's license holders. 
Americans depend on the trucking industry to move more than 
two-thirds of the Nation's freight. The large majority of motor 
carriers are skilled, committed to safety, and play by the 
rules. It is our task to identify the small fraction that are 
at high risk for a crash. Highway fatalities and crashes 
involving large trucks and buses have dropped in the past 
decade, but they have been increasing in recent years. In 2015, 
for example, the number of fatalities involving commercial 
motor vehicles rose 4.1 percent from the previous year.
    We must be vigilant to reduce crashes. This includes 
conducting data-driven safety compliance and enforcement 
activities, leveraging safety technologies, ensuring driver 
qualifications, and expanding partnerships. We rely on our 
partners in State and local law enforcement to keep our 
highways safe.
    Through the Motor Carrier Safety Assistance Program, the 
MCSAP program, more than 13,000 law enforcement personnel act 
as a force multiplier conducting more than 3 million roadside 
inspections each year. Congressional funding in fiscal year 
2015 has allowed us to sharpen our risk-management tools to 
identify and prioritize high-risk carriers. We revised our 
algorithm to identify carriers with a crash rate three times 
higher than the national average. We investigated 90 percent of 
them within 3 months to help bring them back into compliance.
    We commissioned the National Academy of Sciences to take a 
close look at our Safety Measurement System, or SMS, that we 
use to prioritize motor carriers. The study made 
recommendations to further improve SMS. We are taking these 
recommendations seriously and will submit a corrective action 
plan to Congress.
    Additionally, we are addressing industry concerns about 
crash preventability. Later this week, we will announce a 24-
month demonstration program to review less complex crashes to 
determine if they were preventable and can be removed from the 
motor carrier's records.
    Under Secretary Chao's leadership, FMCSA is looking to the 
future. We have been encouraging industry to develop advanced 
driving systems that improve both safety and economic 
competitiveness. We are meeting with key players through a 
series of public meetings and listening sessions to discuss 
advanced driving systems and truck platooning.
    Another example of leveraging technology is the use of 
electronic logging devices to address hours-of-service 
compliance and driver fatigue. We are working closely with the 
industry, law enforcement, and stakeholders to ensure a smooth 
transition to electronic logging devices as its first 
compliance date approaches later this year.
    We are focused also on driver health and education as key 
components of safety. Last year, we published a final rule on 
the Drug and Alcohol Clearinghouse. This new program with a 
compliance date of 2020 will enable the agency and employers to 
identify individuals who test positive for use of controlled 
substances or abuse of alcohol.
    To improve driver education, we published the Entry-Level 
Driver Training rule last December. This was a product of 
negotiated rulemaking in which our stakeholders worked side by 
side with us to formulate minimum training requirements for all 
new drivers. We will establish a registry of training schools 
with appropriate curriculum standards for classroom and on-road 
training.
    FMCSA is also a member of the Road to Zero Coalition, a 
partnership with the National Safety Council, NHTSA, and FHWA 
with the aim of eliminating truck fatalities within 30 years. 
We have heard from our industry partners and safety advocates 
that it is important to educate drivers like you and me on how 
to safely share the road with commercial motor vehicles.
    As a result, FMCSA has recently announced its Our Roads, 
Our Safety campaign that will focus on States with the highest 
incidence of crashes. This targeted approach will allow us to 
reach drivers where education and awareness can make the 
greatest difference.
    Mr. Chairman, we must do more to make our roadways safe for 
the traveling public. Every FMCSA employee, our State partners, 
our DOT sister agencies, and our stakeholders share this solemn 
commitment to bring this tragic increase in highway fatalities 
back down. Together, with your support, we can improve safety 
for all.
    I would be happy to answer any of your questions. Thank 
you.
    Mr. Graves of Missouri. Thank you, Mrs. Jefferson.
    Mr. Danielson.
    Mr. Danielson. Good morning, Chairman Graves, Ranking 
Member Norton, and the distinguished members of the 
subcommittee. On behalf of the National Highway Traffic Safety 
Administration, thank you for the opportunity to update you on 
NHTSA's implementation of the FAST Act and our efforts to 
improve safety on our Nation's roads. For the last 50 years, 
NHTSA has diligently worked to fulfill our mission, to save 
lives, prevent injuries, and reduce the economic cost due to 
road traffic crashes through education, research, setting 
safety standards, and enforcement. We could not work toward our 
mission without the support of this committee and your work on 
the FAST Act.
    In 2015, we lost 35,092 people on our public roads. That 
was a 7.2-percent spike in traffic fatalities and the largest 
single-year increase in 50 years. Unfortunately, the 
preliminary numbers appear to show that roadway fatalities 
increased further in 2016.
    As many know, 94 percent of serious crashes are the result 
of human choices, such as distraction, alcohol and drug 
impairment, speeding, and fatigue. The bottom line is the 
overwhelming majority of crashes result from someone making a 
poor choice. In the FAST Act, Congress provided more tools to 
combat unsafe driving behavior, including such persistent 
challenges as impaired and distracted driving.
    How many times have you observed the driver in the car next 
to you texting or looking down at a phone? How often was that 
car swerving, falling below the speed limit, or, worse, 
speeding toward another car? Sending or reading a text takes 
your eyes off the road for an average of 5 seconds. At 55 miles 
an hour, that is like driving the length of an entire football 
field with your eyes closed. Distracted driving is a prime 
example of the poor choice that can cause crashes. And the FAST 
Act is helping us address that through grants to States that 
enact lifesaving distracted driving laws.
    In fiscal year 2017, we were able to award 27 grants to 
States to address distracted driving. These grant funds are 
available for a variety of safety purposes, including 
distracted driving enforcement. We look forward to working 
closely with the States to increase the number of these grants 
in future years as more States enact these important laws.
    In addition to distracted driving grants, the priority 
safety grants in areas such as occupant protection, impaired 
driving, and motorcycle safety, the FAST Act added grants to 
promote pedestrian and bicycle safety, 24/7 sobriety programs 
to combat drunk driving and racial profiling collection.
    Today, technology plays a substantial and growing role to 
improve roadway safety with a long-term potential of removing 
the human factor from the crash equation altogether. There is a 
good deal of excitement over the potential of automation in 
vehicles to prevent crashes and save lives.
    Automated driving systems are capable of addressing 
critical cause of over 90 percent of serious crashes. Secretary 
Chao has made the review and improvement of the Federal 
Automated Vehicles Policy a top priority. The Secretary is 
focused on establishing a framework that supports innovation 
and the safe testing and deployment of automated driving 
systems.
    Technology has the potential to greatly improve safety as 
well as the travel experience. However, technology is a double-
edged sword. Over the long term, it promises us an amazing 
future of safe and convenient mobility. But in the near term, 
it poses an immediate threat from every other driver on the 
road who refuses to put down their phone. Sadly, too many of 
these drivers are young drivers whose inexperience magnifies 
the risk to themselves and those around them. NHTSA is always 
looking for creative ways to increase roadway safety and 
improve driver behavior.
    With your continued support, our safety campaigns, such as 
Click It or Ticket; Drive Sober or Get Pulled Over; and U Text, 
U Drive, U Pay will encourage safe driving choices, and these 
campaigns are changing driver behavior and attitudes for the 
better.
    Safety is NHTSA's highest priority. And I thank the 
subcommittee and the staff for its continued support and for 
devoting the resources and time to the important safety 
challenges that NHTSA confronts. And I look forward to 
answering any questions you may have.
    Mr. Graves of Missouri. Ms. Dinh-Zarr.
    Ms. Dinh-Zarr. Good morning, Chairman Graves----
    Mr. Graves of Missouri. Good morning.
    Ms. Dinh-Zarr [continuing]. Ranking Member Norton, and 
members of the subcommittee. Thank you for inviting me to 
testify today on behalf of the National Transportation Safety 
Board.
    We have just heard that more than 35,000 people die on our 
Nation's roads each year. As an independent Government 
investigative agency, the NTSB is at the scene of some of the 
worst of these crashes. We provide assistance to families, and 
we make safety recommendations to prevent these tragedies from 
happening again.
    Our Most Wanted List identifies 10 focus areas that we know 
firsthand can improve transportation safety. Seven of these 
areas specifically affect highway safety. They are impairment, 
distraction, occupant protection, fatigue, medical fitness, 
collision-avoidance technologies, and event data recorders.
    More than 10,000 fatalities each year in the United States 
involve an alcohol-impaired driver. Impairment by other drugs 
is also a rising concern. We have recommended a comprehensive 
approach to address impaired driving including lowering of the 
per se blood alcohol content, strengthening requirements for 
ignition interlocks, and taking strong action to prevent 
commercial drivers from using these substances.
    In 2015, more than 3,400 died, and 391,000 people were 
injured in distracted driving crashes. Effective change 
requires strict laws, proper education, and effective 
enforcement. We have recommended banning nonemergency use of 
portable electronic devices by all drivers, high-visibility 
enforcement, and targeted communication campaigns.
    We have investigated many crashes in which improved 
occupant protection systems, such as seatbelts, child 
restraints, and vehicle design features could have reduced 
injuries and saved lives. Since 1995, we recommended that 
States require primary enforcement of seatbelt laws for all 
vehicle seating positions equipped with a passenger restraint 
system. While schoolbuses generally are safe, we have 
identified benefits from using lap and shoulder restraints. 
Thus, we have recommended training for bus drivers, students, 
and parents on the importance and proper use of seatbelts and 
that States or school districts consider lap/shoulder belts 
when purchasing new schoolbuses.
    Fatigue is a significant concern, especially in commercial 
trucking and bus operations. For more than 25 years, we have 
advocated the use of technology like electronic logging 
devices. These devices may be used as part of a carrier's 
fatigue management program. Such programs can reduce fatigue-
related crashes and should be required for all carriers.
    More than 90 percent of crashes can be attributed to driver 
error, and increased implementation of vehicle-based and 
driver-assist collision-avoidance technologies can aid drivers 
and help reduce the occurrence of certain types of crashes.
    Finally, data recorders capture and store critical 
information that help investigators determine the cause of a 
crash and guide companies and operators to take proactive steps 
toward prevention. We have frequently expressed our concern 
about the lack of requirements for heavy commercial vehicles to 
have event data recorders.
    The FAST Act provides critical resources to help States 
reduce highway deaths and injuries by focusing on seatbelt use, 
impaired and distracted driving countermeasures, motorcyclist 
safety, and graduated driver licensing laws.
    We continue to monitor progress on other initiatives, such 
as hair testing for commercial motor vehicle operators, and 
ensuring that deficiencies in the FMCSA Compliance, Safety, and 
Accountability Program are addressed to identify carriers that 
pose the greatest risk to the public.
    The NTSB is also looking at other safety issues. Next week, 
we will consider a safety study examining speeding-related 
passenger vehicle crashes. We are also developing a special 
investigation report regarding pedestrian safety.
    Finally, NTSB recognizes that emerging technologies in 
automated vehicle systems have significant potential safety 
benefits. We have a history of calling for automation to 
provide an increasing margin of safety in all modes of 
transportation. We plan to complete our investigation of the 
first known fatal crash of a vehicle operating under automated 
control systems later this year. And, of course, when it is 
complete, we would be happy to provide you with the findings of 
this investigation and any crash we have investigated so that 
it might be helpful to you in your work to make our roads 
safer.
    Thank you again for the opportunity to testify before you 
today. And I would be happy to take any questions.
    Mr. Graves of Missouri. Thank you very much to all our 
witnesses.
    Now I will go and start questions. I am going to start with 
Mr. Gibbs.
    Mr. Gibbs. Thank you, Mr. Chairman. I wasn't expecting that 
right quick.
    Mrs. Jefferson, recently the National Academy of Sciences 
finished their CSA and SMS study, and I was wondering--it said 
something about FMCSA used a more detailed, structurally sound 
mathematical model. Does the agency intend to develop a model 
to--with CSA scores?
    Mrs. Jefferson. Congressman Gibbs, thank you for that 
question.
    FMCSA appreciates the work that the National Academy of 
Sciences performed on the FMS study. Our intent is to implement 
the recommendations of that study. We will be engaging the 
Academy of Sciences to continue working with us as well as 
engaging stakeholders as we go about developing our corrective 
action plan.
    Mr. Gibbs. Whatever model is developed or used, will it 
count--not count against drivers who are not at fault in an 
accident? Because that has been one of the big problems in the 
current scoring.
    Mrs. Jefferson. Well, I can't speak in detail on what the 
model will entail. We would be happy to keep Congress abreast 
as we go through the process. But we are looking at 
opportunities through a crash preventability pilot program to 
look at crashes that drivers may come back and say those--they 
were not at fault and provide them an opportunity to provide 
information so that they can be removed from the record.
    Mr. Gibbs. Because I think in this--the Academy of Sciences 
identified a small number of violations that correlate with 
crashes, but yet they identified nearly 900 other possible 
motor safety regulation violations. You know, it would be nice 
if maybe they focus their attention on the regulations that 
correlate with crashes. I mean, you know, put more priority to 
that.
    Mrs. Jefferson. One of the recommendations was that the 899 
potential violations, we review those and focus on the ones 
that have the greatest correlation to safety. So we will be 
taking a looking at that.
    Mr. Gibbs. Does the agency plan to hold public meetings or 
invite stakeholders to meet with the agency during this 
planning period for a formal response to the recommendations of 
their report?
    Mrs. Jefferson. Yes, we do. We are working now to figure 
out how to conduct a public meeting before the 120-day deadline 
for submitting the corrective action plan. And as a part of our 
planning, we will engage stakeholders throughout the process.
    Mr. Gibbs. OK. Also, you know, the FAST Act included 
several reforms. One was for process for interested veterans 
from Active Duty service and women to obtain a commercial 
driver's license. Have we seen an increase in the number of 
veterans in that program? What is the status of more veterans 
and women obtaining the CDLs?
    Mrs. Jefferson. We are working on rulemaking that will make 
it easier for men and women who have used heavy commercial 
vehicles in the military to transition into civilian life. We 
are also working with the Veterans Administration and the 
Department of Defense in helping to facilitate transition of 
veterans coming into the commercial motor vehicle industry.
    Mr. Gibbs. Very good.
    Mr. Danielson, the FAST Act required DOT to conduct a study 
about marijuana-impaired driving, submit a report to Congress. 
Can you provide us an update and status of that report?
    Mr. Danielson. Of course, sir. The report is in its final 
agency review, and we hope to have it in your hands very soon.
    Mr. Gibbs. Also, NHTSA roadside studies have shown the 
presence of marijuana among drivers is increased and that 
marijuana-positive driving now exceeds alcohol-positive 
driving. What steps is NHTSA taking to address this issue?
    Mr. Danielson. The role of impairment by drugs is not well 
understood. There are two basic reasons for that. One is there 
is not a scientifically acceptable threshold for impairment by 
drugs. The other is that there is not--there is not a 
technology to detect drug impairment.
    However, what we do know, a couple things, is that 
marijuana usage has gone up 50 percent from 2007 to 2014, and 
we also know that, through laboratory studies, that marijuana 
impairs judgment and impairs your ability to drive, 
particularly with reaction time. And so what NHTSA--NHTSA 
addresses this via training of law enforcement through our drug 
recognition expert program. We have 8,000 law enforcement 
officials who are trained to go through an extensive battery of 
tests on the roadside of people who are suspected of impairment 
by drugs. This is a court-accepted process.
    NHTSA is also working on research to develop a drug 
detection method, a device that we could give to law 
enforcement using oral fluids.
    Mr. Gibbs. I guess I am out time.
    I yield back.
    Mr. Graves of Missouri. Ranking Member Norton.
    Ms. Norton. Thank you, Mr. Chairman.
    Mrs. Jefferson, you, perhaps, heard my opening remarks--in 
my opening remarks, my concern about driver training. Now, 
Congress has the same concern--expressed that concern in the 
FAST Act when it directed the FMCSA to give, quote, ``safety 
the highest priority.'' So I was heartened that, after 25 
years, there was a rulemaking that was going to get all of the 
factors, especially the number of hours of training necessary. 
And lo and behold, you did. You had negotiated rulemaking. 
Negotiated rulemaking is consensus rulemaking. So while you had 
disparate actors, they agreed on 15 to 30 hours of training, 
depending on other factors. That was a triumph after 25 years.
    Now, last year, that rule came out without those minimum 
number of hours. It seems to me that you have not met the 
congressional mandate to give safety the highest priority if 
you have left the most important factor, the number of hours of 
training, out of the rule.
    So how do you reconcile? Why, indeed, were those hours, 
which the stakeholders agreed upon, not made a part of the 
rule?
    Mrs. Jefferson. Ranking Member Norton, safety is our 
highest priority. The Entry-Level Driver Training rule was a 
negotiated rulemaking. A key part of that negotiation was 
developing curriculum that set some minimum standard for 
commercial driver training.
    Ms. Norton. Mrs. Jefferson, I am going to ask you to answer 
my question. I didn't say you didn't--that you didn't develop 
an appropriate curriculum. I thank you for that.
    I am asking a very specific question. If you were able to 
get such disparate stakeholders to agree on the number of hours 
training necessary, why did the rule not include that since 
there was agreement on that factor?
    Mrs. Jefferson. The number of hours----
    Ms. Norton. Fifteen to thirty hours.
    Mrs. Jefferson. Fifteen to thirty hours, depending on the 
class of the CDL----
    Ms. Norton. And the license, et cetera, yes.
    Mrs. Jefferson. And those hours were based on the minimum 
level of curriculum that was agreed to. That curriculum, that 
course requirement, is a part of the rule. There has been no 
change----
    Ms. Norton. Why was 15 to 30 hours not a part of the rule, 
Mrs. Jefferson?
    Mrs. Jefferson. The 15 to 30 hours was used as a minimum to 
get to those out to those courses. In order to get through the 
courses and to allow for the flexibility, it is a minimum. It 
may very well take longer----
    Ms. Norton. Oh, wait a minute. Are you saying that, in 
order to get through the course, the curriculum that I 
congratulate you for issuing, that you will have had to have 15 
to 30 hours of on-the-road training? On-the-road training.
    Mrs. Jefferson. It depends on the skill set that somebody 
brings into the program. We are setting the curriculum that 
they are required to have. In order to successfully complete 
entry-level driver training, they will have to complete the 
curriculum that was agreed to. The curriculum----
    Ms. Norton. Are you saying, Mrs. Jefferson--this is very 
confusing. Are you saying that the curriculum involved on-the-
road driver training or not? Is that your testimony?
    Mrs. Jefferson. That is a part of the entry-level driving 
training requirement. We just did not state a minimum number of 
hours. The curriculum that the industry, as well as the driving 
training schools and academics, developed is what was included 
in the rule. That is a minimum level of training that is 
required for the CDL.
    Ms. Norton. On-the-road driver training.
    So you think the rule already incorporates the 15 to 30 
hours on the road because of the curriculum and what is 
necessary to, in fact, pass the curriculum?
    Mrs. Jefferson. We do. We believe that what is in the final 
rule is sufficient to provide a level--a standard level of 
entry-level driver training across the country. It has 20-plus 
years to get there.
    Ms. Norton. Twenty-five years.
    Mrs. Jefferson. Twenty-five years, yes.
    Ms. Norton. Mrs. Jefferson, I will take another look at it. 
The fact that you didn't--that you eschewed the number of hours 
seems to me to be very strange.
    I do want to ask: What is wrong with us, Mr. Danielson? We 
find that driver accidents, fatalities are going up. And then I 
was given some figures that show that U.S. traffic fatality 
rate is twice the average of 19 other high-income countries. 
Why is that? What are we they doing that we are not doing?
    Mr. Danielson. Ranking Member Norton, the increase that we 
saw in 2015 was--by rate--was the highest increase that we saw 
in 50 years. But it coincided with another historic increase, 
which was a rate increase of vehicle miles traveled. There is 
no single cause to the increase in fatalities. However, we do 
know that over 90 percent of serious crashes are due to human 
choice and error, and that is why two-thirds of NHTSA's budget 
goes directly out to the States in the form of formula grants 
to address these serious behavioral issues, which are the 
choice to speed, to drink and drive, to send a text from behind 
the wheel.
    But to address your specific question about the comparison, 
last year, NHTSA joined with FMCSA and Federal Highway, along 
with the National Safety Council, to launch of Road to Zero 
initiative, which is an unprecedented initiative involving over 
300 partners of behavioral safety, vehicle manufacturers, and 
road user groups, with a goal of driving this trend back down 
and completely eliminating roadway fatalities over the span of 
30 years.
    This is akin to what other countries have done. The country 
of Sweden, which is on the other side of many of the charts 
that you will see from where the U.S. is, embarked on this 20 
or 30 years ago, and it has had a tremendous effect by bringing 
all of these different groups together to address this 
complicated behavioral question.
    Ms. Norton. So we are now doing what other countries have 
already done, and you expect that to drive down these 
fatalities and injuries?
    Mr. Danielson. That is the goal.
    Ms. Norton. Thank you, Mr. Chairman.
    Mr. Graves of Missouri. Mr. Bost.
    Mr. Bost. Thank you, Mr. Chairman.
    Mrs. Jefferson, there is something that concerns me, 
because I have got a--several of my companies--just so you 
know, I drove tractor-trailers most of my life. I drove my 
first tractor-trailer across the lot when I was 9 years old. I 
come from a family that started in 1933 in the trucking 
industry. And I believe that safety is vitally important. But I 
also see some of the rules and the concerns I have as the rules 
move forward at a time when driver shortages are so bad. And I 
want safety first. But I need to look and see what we can do to 
make sure, as we implement certain things, that those things 
can be implemented and still allow us the opportunity to 
provide--because we got a lot of people out there needing 
products and needing to keep products moving.
    So what I want to know is, is there anything--whenever we 
implement the ELD [electronic logging device]--and we are 
coming up on a deadline when it has to be implemented. Several 
companies don't have them in place yet. They are trying. The 
expense is very large. Do we have some kind of mechanism in 
there that allows leeway for the implementation of this, or are 
there any things out there that allow you and the rules to 
allow that to happen and give a wise opportunity for those 
companies to meet those regulations?
    Mrs. Jefferson. Congressman, the first implementation date 
or compliance date for electronic logging devices is December 
18 of this year.
    Mr. Bost. I know that.
    Mrs. Jefferson. And we have been working very closely with 
industry as well as our State and local law enforcement 
partners towards preparing for that date. We have over 70 
providers that have signed up, ELD providers, and we are seeing 
the cost of equipment come down as we get closer to the date, 
as we get more and more companies that are providing the 
equipment.
    And there are--the ELD rule was intended to be a 
performance-based rule to allow for lower cost solutions for 
small businesses or small carriers up to state-of-the-art fleet 
management systems for larger systems. Those lower cost systems 
are compliant with the rule. And we will continue throughout 
the rest of the summer and into the fall to get out and meet 
with drivers and try to understand the issues. But we do see 
the cost coming down.
    Mr. Bost. OK. Let me ask you this, then, because what I 
really want to know is, if--as they are trying to turn this up 
and you are limited on the amount of people that can install 
them and you have all this, now you are hitting their December 
hard line, after that December hard line, someone is stopped, 
they are charged, and how are they charged? Is there any way 
that there can be an extension if they do not have these 
programs in place?
    Mrs. Jefferson. We don't have a way to extend it. The 
compliance date was in the final rule. However, I can assure 
you that we are working with industry, with our State and local 
law enforcement partners to make sure that not only are we 
ready but also, what is the state of the industry as we get 
closer to that date? And we are seeing, as I said, more and 
more companies coming in with lower cost solutions. And the 
companies that have previously equipped with automated onboard 
recording devices have an additional year to upgrade to the ELD 
standards.
    Mr. Bost. OK. So my question--then is the company, then, 
the one that is responsible, or is the driver? If all of a 
sudden a driver gets in one that is not equipped, are they 
responsible?
    Mrs. Jefferson. The company is responsible for the vehicle. 
The driver is responsible for keeping track of their hours of 
service.
    Mr. Bost. So they can use a regular logbook to do that 
after December 18?
    Mrs. Jefferson. If they have an exemption to be able to use 
it.
    Mr. Bost. If they have the exemption. OK.
    Mrs. Jefferson. Yes.
    Mr. Bost. All right. So what I also need to know, then, I 
guess, and because I am running out of time, but as we move 
forward with this, is there any exemptions for times like, for 
instance, when we have a very bad cold snap and we have propane 
drivers and gas haulers that need to get products, is there 
going to be exemptions for extension of hours? Because once you 
have an ELD in place, it is no longer based on your manual 
logbook. Now, all of a sudden, we are on the technology and 
everything like that. So the same thing for grain season. Same 
thing for--the list goes on and on of those times when product 
needs to be moved and people need extra hours to get those 
products moved.
    Mrs. Jefferson. Congressman, let's keep in mind that the 
hours-of-service regulations have not changed. It is just the 
method of recording hours of service. And so, during heating 
season, where companies currently can request exemptions----
    Mr. Bost. They can still do that.
    Mrs. Jefferson [continuing]. Hours of service, they can 
still do that.
    Mr. Bost. OK. Thank you very much.
    My time has expired.
    Mr. Graves of Missouri. Mr. DeFazio.
    Mr. DeFazio. Thank you Mr. Chairman.
    Mrs. Jefferson, as you know, part of MAP-21 was that, you 
know, FMCSA should develop rules that would prevent employers 
from forcing drivers to drive beyond their authorized hours. 
You have published a final coercion rule to implement this more 
than 18 months ago. Luckily, it escaped the Trump ban on safety 
rules. But I am not aware of any use of this coercion rule. I 
am very disturbed by a recent series of articles in USA TODAY. 
This is something that I actually held hearings on back in 
2008, as I recall, the abuse of drivers at the ports of Los 
Angeles and Long Beach. And these are very specific stories. 
And one employee was terminated after speaking to USA TODAY, 
and another employee was told ``there is the door'' when he was 
told to drive beyond legal limits. And they say this is a 
pervasive pattern, that one company, Morgan Southern, was 
particularly mentioned. I think others have problems also.
    Have you prosecuted anybody there? Are you following 
through on any complaints by drivers there using the coercion 
rule?
    Mrs. Jefferson. Ranking Member DeFazio, we are 
investigating complaints that come in under the coercion rule. 
I can't speak to specifics at this point, but we would be happy 
to get back to you on specifics. But we do have several that we 
are investigating.
    Mr. DeFazio. OK. I hope that you will use this, because, 
you know, detention time and the port drayage are two areas 
where we are forcing people to drive beyond their authorized 
hours. And, you know, we need to be taking meaningful 
enforcement action of abusive practices.
    So thank you.
    Mr. Danielson, last year, NHTSA proposed a phase 2 
voluntary guideline for distractive electronic devices that are 
aftermarket, not installed in the car. I have seen--I read an 
article about devices that will project your email onto your 
windshield so you can be emailing as you drive or reading your 
email. Would that be considered a distraction?
    Mr. Danielson. Yes.
    Mr. DeFazio. OK. And where are we at with the phase 2 
voluntary guidelines? Is that--now, we heard from the Trump 
administration they weren't going to impede safety rules. So is 
this one moving forward?
    Mr. Danielson. These were guidelines, sir, so they were 
advice to device manufacturers for things for them to consider 
when they are designing these devices that, when used during 
driving, would minimize the potential for distraction.
    I would point out, without naming any individual companies, 
that several device manufacturers that are well-known have 
already begun to roll out optional features where a device 
owner can elect to turn on this feature and the smartphone can 
detect if you are driving your car and then delay notifications 
of text and other things until you are done with your driving 
trip.
    So device manufacturers are already taking a look at this 
and trying to determine.
    Mr. DeFazio. Yeah, some. But there is always--I mean, this 
was actually a heads-up display on the windshield. Now, I would 
consider that would be fairly distracting. It doesn't have 
anything to do with the conduct of the vehicle itself.
    Ms. Dinh-Zarr, would you--would NTSB have concerns about 
these sort of devices, and do you think we need something more 
than voluntary guidelines?
    Ms. Dinh-Zarr. Thank you, Ranking Member DeFazio. We 
absolutely have concerns about any type of distracting 
technology. And that is why we have investigated accidents 
where we have seen that technology has had an impact.
    As far as regulations, we leave that up to the wisdom of 
your judgment of the DOT. But we have made recommendations to 
avoid these types of distractions in vehicles.
    Mr. DeFazio. OK.
    Ms. Dinh-Zarr. I should add that is in addition to our 
collision-avoidance type of technologies. And we have made 
recommendations in support of those.
    Mr. DeFazio. Right. When we have great collision avoidance 
or great self-driving cars and people can email or twerp or 
Twitter to their heart's content while they are driving. But I 
have real concerns about it going on in the current atmosphere.
    I am going to look into this further to see whether or not 
the voluntary guidance has had an impact and whether or not 
there are--there is always going to be someone who is going to 
say: Well, we don't care about the voluntary guidance.
    I would like to know if actually someone is marketing these 
heads-up displays that put your email on the windshield.
    Thank you, Mr. Chairman.
    Mr. Graves of Missouri. Mr. Denham.
    Mr. Denham. Thank you, Mr. Chairman, and thank you for your 
work on the FAST Act. I wanted to briefly discuss one aspect of 
the FAST Act, something that I had championed specifically for 
the State of California, important to the State of California 
but many other States as well. And that is the NEPA Reciprocity 
Act. That was H.R. 2497 when it was a standalone bill. But the 
legislation proposes changes to title 23. Basically, the NEPA 
Reciprocity Act would say that a State like California that has 
CEQA and NEPA, you go with the highest environmental policy. 
You just don't do it twice. So we are looking for the rule on 
this. We are looking for the implementation on this.
    And, Mr. Waidelich, I wonder if you could give us an update 
on where we are with the proposed rule.
    Mr. Waidelich. We are actually working through that process 
and working on that rule, and we should be seeing something 
soon. A concern that has been voiced with that particular 
provision is the statute of limitations of 2 years versus the 
120 days. There have been some concerns from the State of 
California whether that would be an incentive or a disincentive 
as far as taking on that responsibility. But we are working on 
that rule, and we should be coming out with that soon.
    Mr. Denham. You used the word ``soon'' twice. What is your 
ballpark on ``soon''?
    That means a lot of things here in Congress.
    Mr. Waidelich. It does. But, again, we are working through 
that process. And we don't have a timeline specifically on 
that, but soon.
    Mr. Denham. OK. We are obviously looking for not only to 
the rule but the implementation quickly. And it is certainly 
something we want to continue to work with you on, but, you 
know, we have got summer projects starting up, already ongoing 
in California, and many have reached out to say: Why are we 
going through this process twice when you have already passed a 
new law that doesn't force us to do that?
    So, whether it is road construction or a variety of other 
projects, including some of the water storage projects that the 
President has talked about in California, going through this 
duplicative process not only slows things down, but it really 
decreases the amount of people that are willing--or businesses 
that are willing to bid on these projects going through a long 
and cumbersome process. That also gives you two opportunities 
to sue and litigate during the process. So it is certainly 
something that we want to get done quickly, and we would look 
forward to working with you not only on the rule but the 
judicial review process as well.
    And ``soon'' in our book would be quickly, since we are 
moving--we are hoping that, with the President wanting to get 
rid of the duplication in Government and cut regulations, since 
we have already passed this one into law, we would hopefully 
hope that ``soon'' is 30 days or less. We have been waiting a 
while.
    I yield back.
    Mr. Graves of Missouri. Mr. Lowenthal.
    Dr. Lowenthal. Thank you, Mr. Chair.
    And thank you, members of the panel.
    I had some questions. But I want to switch to something I 
heard in the panel's testimony.
    And, Ms. Dinh-Zarr, the Honorable Ms. Dinh-Zarr. In your 
testimony, you mentioned the NTSB's ongoing work to investigate 
a fatal crash involving autonomous technology, autonomous. And 
I look forward to the final results and the recommendations of 
this investigation. I agree with you the technology presents 
real opportunities to improve safety and save lives. But I want 
to know, what can we do today to make sure that this technology 
is developed and deployed safely? What do you see us as really 
beginning to focus on?
    Ms. Dinh-Zarr. Thank you, Congressman Lowenthal. A lot of 
the technology that is available today is actually the building 
block for complete automation. And Congress has an important 
role to play because of the wide range of stakeholders. I 
believe that we have a unique background because we have worked 
in automation in other modes of transportation, especially 
aviation. And we have seen the positive and the negative 
effects----
    Dr. Lowenthal. Uh-huh.
    Ms. Dinh-Zarr [continuing]. Of automation, as we have seen 
with, for example, airline pilots. So, I think that our lesson 
is that we have to remember that it is not a panacea. It is a 
whole progress. We have a continuum, as you know, of 
automation. And as we progress towards more and more complete 
automation, we have to be aware of where the driver or the 
operator, in the case of aviation, needs to step in. So I think 
the biggest issue is that there is a lot of automation that is 
already being used, collision-avoidance systems, a lot of 
lighting, emergency braking. All of those are a part of 
automation. It is not complete automation.
    Dr. Lowenthal. Uh-huh.
    Ms. Dinh-Zarr. But I think we shouldn't delay those for 
fear of other dangers.
    Dr. Lowenthal. When do you see this rolling out? Can you 
give us some timeframe?
    Ms. Dinh-Zarr. I am sorry, sir?
    Dr. Lowenthal. How do you see this playing out and rolling 
out, the time that we are going to begin to see much more 
automation on our streets?
    Ms. Dinh-Zarr. As you know, we are investigating the 
Williston, Florida, accident. And as more and more use of it 
comes along, the NTSB is in a unique position. We only make 
recommendations based on tragedies that have occurred. So I 
think that we will be making more recommendations from our end 
as, unfortunately, we see more. But, at the same time, we hope 
that the use of automation in the sense of collision avoidance 
and safety will also be increasing, and that could happen 
rather quickly. It is happening now, in fact. It is already 
happening.
    Dr. Lowenthal. Thank you.
    I am going to follow up on Representative DeFazio's 
comments, Mrs. Jefferson, to the FMCSA's coercion rule that the 
Representative brought up just a little earlier. I represent 
the Port of Long Beach. So I have seen this over--and I have 
represented it since I was on the city council and the State. 
And so I have seen this issue about drayage drivers and 
misclassification and potential wage theft for now over 20 
years that has been going on. And so there have been many port 
drivers, drayage drivers, and have brought up many of these 
wage theft and misclassification cases. And in California, our 
labor commissioners received hundreds of these claims.
    I would just like to know how FMCSA is coordinating with 
the State of California's Department of Industrial Relations or 
with the Department of Labor here at the Federal level to 
disseminate information about driver's rights under the 
coercion. How are we coordinating?
    Mrs. Jefferson. Thank you, Congressman Lowenthal. I have 
also seen the recent reports out of USA TODAY and other 
publications. And it is concerning.
    Dr. Lowenthal. I was actually on the docks while this was 
all taking place.
    Mrs. Jefferson. We have not, at this point, coordinated 
with the State of California or the Department of Labor. We 
will take a look and follow up as necessary and be happy to get 
back with you.
    Dr. Lowenthal. Well, I would like that, if you could get 
back to me.
    And thank you, and I yield back.
    Mr. Graves of Missouri. I now recognize Ranking Member 
Norton for a motion.
    Ms. Norton. Thank you, Mr. Chairman.
    Mr. Cummings of this committee is not able to be here but 
had a special interest in safety and has asked that we enter 
into the record, by unanimous consent, a statement related to 
the tragic school bus crash that occurred in Baltimore last 
year.
    Mr. Graves of Missouri. Without objection so ordered.

        [Hon. Cummings' written statement is on pages 42-44.]

    Mr. Graves of Missouri. And, with that, we will move to Mr. 
LaMalfa.
    Mr. LaMalfa. Thank you, Mr. Chairman.
    Thank you to our panelists for appearing here today.
    Let's get right to it. Administrator Waidelich, you know, 
this revamping of the FASTLANE [Fostering Advancements in 
Shipping and Transportation for the Long-term Achievement of 
National Efficiencies] into now the INFRA [Infrastructure for 
Rebuilding America] program, we are glad to see the President 
continuing to push the proposal of infrastructure grants. In 
Butte County, in northern California, where I represent, my 
home county, actually, they had submitted under the FASTLANE 
program. That wasn't fully acted upon at the time. But they 
will resubmit. So the project's impacts were mostly on goods 
movement and regional economies. And that was unquestioned. 
But, also, an additional factor, as many of you have all heard 
about the crisis we had with Oroville Dam last February with 
the impending possible failure of the spillway there when the 
lake was very full and an evacuation of nearly 200,000 people 
in Butte County, it really underlined, underscored the issue 
with State Highway 70 through there, which is one of the--Butte 
County is one of the few counties of some size that doesn't 
have a complete four-lane system linking NorCal to Sacramento 
and farther south. It has a patchwork of some four lanes. So 
what was underlined in this situation was that you had a State 
highway with much two-lane area that caused a bottleneck that 
was hours of standstill for people in an evacuation zone here 
as, again, brought on by that crisis with Oroville Dam. 
Thankfully, nothing ultimately washed out with the so-called 
emergency spillway there. But they didn't know. They had no 
idea.
    And if you saw the illustration there on the TV news, the 
helicopters were--the dam goes across the Feather River. So you 
see Highway 70 traverses Feather River and below. You saw cars 
parked on the bridges on Highway 70 over Feather River. I mean, 
that just has the images of a disaster movie if something were 
to give away, those people that couldn't move on those bridges 
there, as well as all up and down Highway 70.
    So what I think the Federal agencies should consider, and I 
would like to have your opinion, is the impact of grant 
programs, and then maybe we highlight the ones that have both 
the positive economic impact and you get the double-plus of the 
public safety, or vice versa, for a system like that.
    So can you include these factors when considering the 
upcoming INFRA applications? Is that something that we can help 
urge you to have a sense--be like a double benefit when we are 
looking at an acute safety situation as well?
    Mr. Waidelich. First of all, Congressman, I am very 
familiar with that particular area and I-70 in that area, or 
State Route 70 in that area, and Oroville and the dam.
    Mr. LaMalfa. Great. Thank you.
    Mr. Waidelich. Under FASTLANE, there are the small grants 
that will be announced soon. And under the INFRA program, there 
is improved criteria within that including innovation and 
safety to incorporate that actually in the application. So, the 
answer is, as far as can it be considered, within our Federal 
Register notice, it says, we will be considering that as part 
of the criteria.
    Mr. LaMalfa. Good bang for the buck. Double--go ahead. I am 
sorry.
    Mr. Waidelich. Basically, yes. That would be included. And 
there is--the INFRA package came out last June. At $1.5 
billion, it combines the large portion from 2017 and the 
dollars for that particular program in 2018. And, again, there 
is 120 days for those applications to be submitted.
    Mr. LaMalfa. Is there anything the communities in the area 
could do to be helpful to underline or, you know, give you more 
impetus in the process to--you know, to show how strong of a 
need it is?
    Can the communities help underline that a little bit more?
    Mr. Waidelich. I am sure as a part of that as far as, you 
know, with the application endorsements from the communities 
and others, and leveraging with the other stakeholders that are 
involved with that project and that have a stake in that 
project.
    Mr. LaMalfa. Yeah. Well, there is a railroad interstate 
interface up in Shasta County they are quite concerned about 
too. So, but, we will speak on a different time on that.
    I have just a little time left. I had hoped to talk a 
little bit with Mrs. Jefferson about the ELD situation.
    But the ELD mandates, do you believe that more time could 
be helpful for some of the smaller stakeholders, some of the 
smaller companies on that, with implementation of ELDs? We are 
seeing a possible exemption for livestock haulers and others. 
Is this something that we could look at as the impending 
deadline comes on? You will have to be really short on my time. 
I am sorry.
    Mrs. Jefferson. We believe there is sufficient time for 
equipage between now and the end of the year, but we would 
certainly welcome followup with you to have a discussion.
    Mr. LaMalfa. OK. Thank you. I appreciate it.
    Thank you, Mr. Chairman.
    Mr. Graves of Missouri. Mr. Johnson.
    Mr. Johnson of Georgia. Thank you.
    Mr. Danielson, your agency has enacted an impairment 
standard for alcohol use which is .08 across the country. Has 
any similar standard been set for impairment for marijuana use 
while driving?
    Mr. Danielson. No, sir.
    Mr. Johnson of Georgia. Do you know of any studies being 
conducted currently that would be geared toward setting a 
scientifically valid impairment level for drivers using 
marijuana?
    Mr. Danielson. We are actively engaged in research in this 
area. There is--the impairment, impairment by drugs, is not 
well understood. And, of course, there is no scientifically 
accepted standard for it. But we are actively engaged in 
research in this area and, in addition to that, attempting to 
develop technological devices that law enforcement could use to 
test oral fluids to determine impairment.
    Mr. Johnson of Georgia. You are aware of the fact that 
recreational use of marijuana is legal in at least six States 
now and medical use of marijuana, or THC, is also permissible 
in a number of other States? Do you believe that it is 
important for the Federal Government to come up with a standard 
for impairment because of the fact that marijuana or THC 
remains in the blood for--or remains detectable in a urine 
sample for 30 days; for blood, I think 7 days; saliva, I am not 
sure. There might be some Fourth Amendment issues in terms of 
search and seizure with respect to that. But do you believe 
that it is important that the Federal Government come up with 
an impairment standard for marijuana?
    Mr. Danielson. Yes, sir. Since 2007, we have seen a 50-
percent increase in marijuana usage. And so we think it is--
what we do know about marijuana is that it impairs judgment. It 
impairs your driving ability, particularly with respect to 
reaction time. And so we think it is important to develop a 
scientifically based threshold for impairment so we can get 
unsafe drivers off the road.
    Mr. Johnson of Georgia. Certainly. But for someone who used 
marijuana one time 28 days ago and then they are subjected to a 
urine test, that doesn't show impairment at the time that the 
person was driving.
    Mr. Danielson. That is correct. So what we are looking for 
is specific to impairment, not just usage, but impairment at 
the time of driving.
    Mr. Johnson of Georgia. All right. Thank you.
    Ms. Dinh-Zarr, more than 15 years ago, NTSB recommended 
that all new commercial vehicles be manufactured with collision 
warning systems. More recently, the board has recommended that 
all new commercial vehicles be equipped with automatic 
emergency braking. Last Congress, I introduced the Safe Roads 
Act, which would require that all new commercial vehicles are 
equipped with both of these important safety technologies. Can 
you discuss the importance of collision warning systems and 
automatic emergency braking, especially on heavy vehicles that 
can weigh 80,000 pounds or more? And, Mr. Danielson, if you 
could give me your opinion on that as well.
    Ms. Dinh-Zarr. Thank you, Congressman. I greatly appreciate 
that question.
    The NTSB, as you mentioned, has been advocating and has 
been recommending these types of safety tools be in vehicles, 
especially heavy vehicles, for many years. And that is because 
of the crash investigations that we have conducted. When a 
heavy vehicle is in a crash and sometimes it is a multivehicle 
crash, the results are catastrophic. And we know that these 
collision-avoidance technologies such as automatic emergency 
braking can and will reduce the number of these fatal crashes.
    So we support more movement in this area. And that is in 
combination with our other commercial vehicle safety 
recommendations involving fatigue management and speeding. So 
it is all part of a group of safety efforts. But those 
technologies are something we have long advocated and we will 
continue to advocate for.
    Mr. Johnson of Georgia. Thank you.
    Briefly, Mr. Danielson.
    Mr. Danielson. We agree. Crash-avoidance technologies have 
tremendous potential to save lives, particularly in heavy 
vehicles. And that is why we have created the standard for 
electronic stability control. You might have heard that we 
convened a group of automakers last year to get their agreement 
to make automatic emergency braking standard in all light 
vehicles by model year 2022, which is several years before it 
would have been possible using just a notice and comment 
rulemaking approach. And we anticipate that this technology 
will expand beyond the light vehicle fleet eventually.
    Mr. Johnson of Georgia. Thank you.
    I yield back.
    Mr. Graves of Missouri. Mr. Smucker.
    Mr. Smucker. Thank you, Mr. Chairman.
    Good morning. I would like to thank the chairman for 
scheduling this hearing, obviously important. We still have far 
too many fatalities on our highways. So I applaud the effort of 
the coalition to reduce that to zero. It is a laudable goal, 
one that I think can be achieved.
    I did just--a point of clarification, Mr. Danielson, in 
response to another question, we have seen those deaths rise 
slightly: I think about 9 percent in 2015 and then, for 6 
months of 2016, might have an uptick as well. You mentioned 
vehicle miles traveled is up as well. So are you saying per--if 
you compared the two, are we still declining as a rate per 
vehicle miles traveled?
    Mr. Danielson. The fatality rate outpaced the rate increase 
with vehicle miles traveled. There is a well-known correlation 
between fatalities and vehicle miles traveled. And when you 
take a look past the last major four recessions, you can 
actually see the dip in both the VMT and the fatality rate.
    However, it doesn't answer the whole question. What we do 
know is that, as the economy recovers and the price of gas, 
something, that part of the population that is most sensitive 
to the price of gas and tends to travel more when the economy 
starts to recover and the gas prices go along also tends to be 
that part of the population that is overrepresented in crash 
populations because they tend to be inexperienced drivers, 
either very young drivers or very, very old. So this seems to 
be kind of a multiplying effect.
    Mr. Smucker. Yeah. Of all the initiatives, I guess, or 
things on the horizon in regards to improving or decreasing the 
fatalities, I think autonomous vehicles obviously has a lot of 
promise, and I know technology already is being used.
    But I think it is important, as that develops over the next 
number of years and decades, that there is a--you know, I think 
we are going to need a Federal standard. And we are seeing 
activities from the States to develop standards as well.
    So the Federal standard, I believe your agency will be 
responsible for the standard. Am I right on that?
    Mr. Danielson. Yes, sir.
    Mr. Smucker. And can you describe what steps NHTSA is 
taking internally to prepare to serve as that Federal entity to 
regulate autonomous vehicles?
    Mr. Danielson. Yes, sir. First of all, I would like to 
point out that we have taken nothing off the table with regards 
to a future governance structure. But what we do believe is, as 
this technology develops, we want to use the right tool for the 
right time. And we believe that the Federal Automated Vehicles 
Policy that we released last year was the right tool in that it 
provided the world's first national framework for the safe 
testing and deployment of automated vehicles, which was 
designed to discourage a patchwork of State laws with respect 
to vehicle performance and safety but, at the same time, was 
adaptive enough to leave room for market innovation. And as we 
go forward, we are going to collect more information that will 
be necessary for future actions relative to a future governance 
structure.
    Mr. Smucker. I believe there was a period to take public 
comments as a part of that. What is the next step in addressing 
those comments?
    Mr. Danielson. Last month, the Secretary in Detroit 
announced that NHTSA and the Department would be releasing an 
updated version of the Federal Automated Vehicles Policy within 
the next few months, and she has directed NHTSA to begin to 
prepare that update, and we are doing that right now.
    Mr. Smucker. So when can we expect that?
    Mr. Danielson. Timeframe was the next few months. She 
announced that last month.
    Mr. Smucker. Thank you.
    I yield back.
    Mr. Graves of Missouri. Ms. Johnson.
    Ms. Johnson of Texas. Thank you very much.
    I guess I would like to ask questions to two of the 
witnesses at the table. Being from Texas, of course, we have 
lots and lots of trucks, and safety is a major issue. And I 
noticed that, Ms. Dinh-Zarr, that you have determined that 
speed is a major issue as well as some of the underride guards. 
Have you attempted to make recommendations along these lines? 
And what kind of results have you had?
    I guess, Mr. Danielson, I would like you to respond as 
well.
    Ms. Dinh-Zarr. Thank you, Congresswoman Johnson.
    I am also from Texas, so I certainly recognize the 
importance of trucking to our Nation's health and welfare.
    And, yes, we have made recommendations regarding speed 
limiters as well as front, rear, and side underride guards. We 
conducted a study in 2013 on underride crashes and on safety of 
underride guards. And we made recommendations regarding setting 
performance standards regarding those underrides.
    Mr. Danielson. Congresswoman, both of those areas are areas 
of active consideration and activity for the agency. On speed 
limiters, we released in concert with FMCSA last year an NPRM 
that we received public comments on, and we are reviewing 
those. With respect to rear underride guards, we released an 
NPRM in 2015 and received comments, and we are reviewing those 
as well. We are also doing active research in this area to 
develop test procedures for overlap crashes in a rear crash 
scenario with a rear guard.
    Ms. Johnson of Texas. Some of those studies have indicated 
that 73 percent reduction in accidents could happen. Are you 
having any conversation with truck users or the companies? What 
kind of feedback are you getting there?
    Mr. Danielson. Yes. We receive a lot of public comments on 
that rule. And we are reviewing that now. The goal of the 
NPRM--what the NPRM was looking at was harmonizing our standard 
with the standard that is already present in Canada, which, I 
believe, is a 35-mile-an-hour crash test threshold for rear 
guards.
    Ms. Johnson of Texas. But are you optimistic that we can 
achieve these goals of some speed reduction and some 
improvement in the trucks?
    Mr. Danielson. Because this is a regulatory proposal that 
is active on the agenda, I am somewhat constrained in 
forecasting the content and timing of our regulatory agenda. 
But I can tell you that this is an area of active consideration 
in the agency.
    Ms. Johnson of Texas. Have you received some positive 
acceptance from some of the truckers?
    Mr. Danielson. I would have to--I would have to go back and 
review those comments and get back to you, Congresswoman.
    Ms. Johnson of Texas. OK. Well, thank you very much.
    That is all.
    Mr. Graves of Missouri. Mr. Perry.
    Mr. Perry. Thanks, Mr. Chairman.
    Thanks to the panel for your attendance.
    I think my questions will be directed to Mrs. Jefferson. 
First, regarding the FAST Act and the fact that it created a 
military pilot program for individuals, select personnel, 
between the ages of 18 to 21 years of age, as well as a process 
to ease the integration of veterans in getting their CDLs and 
performing in that industry. I also know that the trucking 
industry has a--like many other industries, is struggling to 
find labor and help to do the driving. So I am just wondering 
if you have any metrics to describe how those two programs are 
going?
    Mrs. Jefferson. Thank you, Congressman Perry, for that 
question. We are in the process of rulemaking to move forward 
with the military driver converting from military service to 
civilian and reducing barriers to getting a commercial driver's 
license, as well as moving forward with plans for the under-21 
drivers who have previous military experience. So those are 
moving forward.
    Mr. Perry. So you are in the rulemaking process. At what 
point? Do you have an expected date to put them out for public 
comment? Or do you have a timeline at all that you can 
describe?
    Mrs. Jefferson. We issued a notice of proposed rulemaking 
in June. And we will continue to work through that process of 
getting public comment. In addition to that, there are other 
areas where we are working with our State partners as well as 
the motor vehicle Administrators to make sure that we do 
everything we can to support our men and women who are coming 
out of military service into civilian life.
    Mr. Perry. All right. Thank you.
    As you may know, in April, I introduced a bill regarding 
comprehensive regulatory reform in the passenger carrier 
industry called BUSREGS-21. I drafted the legislation because I 
kept hearing from constituents and owner-operators in the 
district and literally from across the country about a culture 
of overzealous enforcement from the agency. And I saw it myself 
when I first came to Congress, when I talked to a previous 
Director. You know, schoolbuses and motorcoaches are two of the 
safest modes of surface transportation that we have. Yet the 
regulations just keep coming and coming for these folks, and 
they are struggling to maintain their businesses. And if you 
are trying to get into the business, you can just about forget 
it. So my bill attempts a direct regulatory reset.
    Now, on a positive note, I want to report that the agency 
has already rescinded two regulations that my bill proposed to 
rescind, the carrier fitness determination and the minimum 
insurance limits, and is proposing a revision to a third, the 
lease and interchange rule, which is also exceptionally 
problematic. One of the other things that is in the bill is an 
amendment to the mission statement.
    Mrs. Jefferson, I just want to get your thoughts on it. 
Obviously, we want your mission statement to be about safety, 
right? But we also want to include the industry in itself 
because a robust industry that is profitable and that is safe 
is good for, not only the employees and the owners, but for the 
public that wants to travel and use them in schoolbuses. I 
don't know where any of us would be without the schoolbus 
industry and ability to get our kids safely to school. So, with 
that, we also want to add, not only the priority on safety, but 
fostering an environment for a thriving passenger carrier 
industry. And this would be consistent with the FAA's mission 
statement and other agencies. And I am just wondering what your 
thoughts are on that, if you find that objectionable, or if 
that is something we can work on together, or if that is 
something totally out of the realm of possibilities, from your 
standpoint.
    Mrs. Jefferson. Well, I think, as you said, safety is our 
top priority. But we believe a healthy, robust, commercial 
motor vehicle industry, both trucks and buses, is good for 
safety. I think companies across the industry, whether it be 
passenger carriers or property carriers, the vast majority 
realize that safety is a part of their business model. And it 
is good for business. And so, from the standpoint of FMCSA, we 
would be happy to work with you because we believe that a 
healthy industry is a safe industry. And the more money and 
profitability, hopefully, those profits will also be used for 
safety.
    Mr. Perry. I am sure you can imagine--I will close with 
this--I am sure, as the owner of one of the companies, whether 
it is a schoolbus company or motorcoach company, the absolute 
last thing you want to hear or see in the news is there has 
been an accident where somebody was hurt. And it behooves all 
of them to do things as safely as they can for the viability of 
their business, if not their own conscience. So I appreciate 
your comments.
    Thank you.
    I yield back.
    Mr. Graves of Missouri. Mr. Cohen.
    Mr. Cohen. Thank you.
    I want to thank you, the chairman, and the ranking member, 
who is not here, Mr. DeFazio, for taking into consideration a 
request that I, along with Representative Cummings and Duncan, 
penned to hold a hearing that could touch on schoolbus safety 
in light of the accidents that have been discussed here in 
Maryland and in Chattanooga, Tennessee, and others.
    In November 2016, these accidents occurred: 6 dead in 
Baltimore and 6 dead in Chattanooga; 31 passengers injured; 6 
school-aged children were taken--``too early'' is not the right 
term. They were taken, and that was wrong. No more precious 
cargo is there for any commercial carrier than children, 
school-aged children, entrusted by their parents to go and get 
educated to have a better life.
    The NTSB has had ongoing investigations into these 
accidents and cannot answer questions directly related to each 
case. I understand that. But in both cases, it seems there were 
a number of safety precautions and oversight issues that could 
have prevented or mitigated the risk of injuries and fatalities 
suffered from the unfortunate events.
    Having said that, I want to ask a few questions of Ms. 
Dinh-Zarr. In five reports since 2010, including accident 
investigations involving schoolbus crashes in Anaheim; 
Chesterfield, New Jersey; Knoxville; Houston, Texas; and Gray 
Summit, Missouri, the NTSB made several observations in which 
it concluded that compartmentalization was not enough to 
prevent all injuries, particularly in accidents involving side 
impact or high-speed rollover. Yet, on your website, the NTSB 
states that it believes and recommends that new schoolbuses 
should provide children with three-point seatbelts.
    A, does this recommendation still stand? Can you elaborate 
how the NTSB came to the conclusion that compartmentalization 
was an insufficient safety mechanism? And when can we expect 
the investigations of the Chattanooga and Baltimore crashes to 
be released? And those are my questions for you.
    Ms. Dinh-Zarr. Thank you, Congressman----
    Mr. Cohen. You are welcome.
    Ms. Dinh-Zarr [continuing]. Cohen. I appreciate your asking 
those questions because schoolbus crashes are always some of 
the hardest for us to investigate but, obviously, very 
important to make sure that our children get to school safely.
    We can't speak specifically about some of the issues that 
you mention regarding the investigation but we are looking into 
medical fitness as well as screening of drivers in schoolbuses. 
You mentioned the three-point seatbelt, the lap/shoulder 
harness seatbelt recommendation. That still does stand. We are 
recommending that States and school boards, as they buy new 
schoolbuses, buy buses that have this type of better restraint 
system. In our crash reconstruction and our investigations, we 
found that there are certain types of crashes, such as a 
rollover crash or a side impact crash, where having a three-
point seatbelt is very important.
    I should say that schoolbuses are very safe vehicles. It is 
much safer for a child to go to school in a schoolbus than 
almost any other vehicle. Compartmentalization is an important 
tool for safety on the schoolbus, but it primarily helps with 
forward-type collisions. So that is why that three-point 
seatbelt recommendation still stands.
    Mr. Cohen. Your statement, you said that you would--States 
should consider when purchasing new buses. ``Consider.'' Have 
you thought of anything stronger than ``consider'' and 
mandating, since it is such an important safety element that 
you have endorsed and found studies?
    And I have got five reports on schoolbus investigations 
that I want to enter into the record where they all say that 
school seatbelts would have saved children's lives.
    Ms. Dinh-Zarr. We certainly will consider it. And as the 
investigation for these two November schoolbus crashes 
continues, we will, again, consider how the wording goes.
    In the past, we have always attempted to balance being very 
prescriptive with the feasibility of some of our 
recommendations. But we will certainly take your comments under 
consideration.
    Mr. Cohen. I hope so. I have been working on this since the 
1990s, and I have always had school boards against it. They 
don't want to spend the money. And the money should come 
secondary to the safety.
    I would like to introduce for the record, without 
objection, these five reports that all indicate that seatbelts 
on schoolbuses would save lives. Dollars shouldn't be the issue 
with our precious cargo.

        [The 113-page report about the Chesterfield, NJ, collision 
        (Accident Report NTSB/HAR-13/01, PB2013-106638) can be found 
        online at https://www.ntsb.gov/investigations/AccidentReports/
        Reports/HAR1301.pdf. The 104-page report about the Gray Summit, 
        MO, collision (Accident Report NTSB/HAR-11/03, PB2011-916203) 
        can be found online at https://www.ntsb.gov/investigations/
        AccidentReports/Reports/HAR1103.pdf. The other three reports 
        are on pages 85-130.]

    Mr. Cohen. There are some other issues I have dealt with. 
And I only have a few seconds left. But I want to ask this: Are 
there any recommendations that any of you all have on graduated 
driver's licenses, to how we should try to improve those, those 
laws in the States, and/or ignition interlock laws for multiple 
DUI offenders?
    Mr. Danielson. Sir, for all of our national priority 
programs that are kind of on the newer side, there is a period 
of time that it takes for States to comply. And graduated 
driver's license is the biggest example of this. We have zero 
States who are eligible for these programs.
    NHTSA is going to work with these States to try and get 
them eligible. Congress sort of relaxed some of the standards. 
States still aren't there. But we have seen, over time, 
particularly with our more mature priority programs, that 
States do come along, and they do work. The strong laws that 
Congress requires under the FAST Act do work over time in terms 
of saving lives. And we have seen it with occupant protection. 
In 2016, for the first time, seatbelt usage nationwide went 
over 90 percent. And that is largely because of the strong laws 
required under the authorization of Congress. So we don't want 
to encourage lowering the standards too much. We take it on 
ourselves to try and work with the States to provide technical 
assistance to get them where they need to be in order to have 
strong laws on the books.
    Mr. Cohen. Before I yield back the time that I don't have, 
I just want to thank you for what you have done. I passed a 
seatbelt law in Tennessee 15 years ago. And Jim Hall worked 
with us closely on that. I appreciated his support and hope you 
all will keep up the standards, because it was difficult to get 
the standards in there to say kids couldn't use cell phones or 
kids had to put on their seatbelts or the number of passengers 
and all that.
    And ignition interlock is something else we worked on back 
then. And for multiple DUI offenders, they ought to be able to 
do the Constitution backwards.
    I yield back the balance of my time.
    Mr. Graves of Missouri. Mr. Barletta.
    Mr. Barletta. Thank you, Mr. Chairman.
    Before I came to Congress, I owned a road construction 
business. So I know firsthand how dangerous it can be working 
in construction zones. We actually put the lines on the road 
that saved lives. You know, I always used to say: You never 
read in the paper the names of the people whose lives you have 
saved.
    There is only so much signage and protection that you can 
offer your employees to protect them from the constant threat 
of distracted drivers and speeding trucks and vehicles. The 
data speaks for itself. According to FHWA, in 2014, 119 roadway 
construction workers lost their lives in work zone crashes. In 
2015, 700 people were killed in work zones as a result of motor 
vehicle crashes.
    Just last month, I was personally touched by such an 
incident. Michael J. Friendy, who I had hired when I had my 
business, he was a 41-year-old from my hometown in Hazleton. He 
was setting up a construction zone on Interstate 81 when he was 
struck by a car and killed instantly. I knew Mike for over 20 
years and was incredibly saddened by his death. My thoughts and 
prayers continue to be with his friends and his family and his 
coworkers as they grieve this incredible loss.
    Acting Deputy Administrator Waidelich, in your opinion, 
what steps can this committee take to combat work zone crashes 
and improve the safety for roadway construction workers and 
contractors so that we don't lose more talented, and hard-
working and good people like Michael Friendy?
    Mr. Waidelich. Congressman, you are correct with stating 
that the dangers of work zones today, especially with the 
increases in volumes of traffic, night work that is going on, 
and more work that is going on out on our roadways because we 
are trying to rehabilitate and reconstruct our infrastructure.
    The Federal Highway Administration works in many different 
ways to improve work zones, to work with our stakeholders, 
whether it be States or locals or others. First, we have the 
``Manual on Uniform Traffic Control Devices,'' which includes 
minimum standards for work zone safety signing and buffer zones 
and those types of elements within a particular work zone.
    We work on deployment of technologies, for example, 
intrusion alarms that would alarm workers when the work zone is 
actually intruded by a particular vehicle.
    A big part also is awareness and public education. During 
Work Zone Awareness Week, we work with AASHTO and ATSSA and get 
the word out, because work zones are not only dangerous for 
workers; they are also dangerous for those vehicles that are 
going through it. As you stated, it was over 500 motor vehicle 
fatalities that occurred in work zones also on an annual basis.
    And in working with this committee, I would hope that 
availability of those funds for deployment of those types of 
innovations, and for education and awareness about work zones, 
would continue.
    Mr. Barletta. We got to do a lot more work. Because the 
only thing that was separating them from live traffic were 
rubber cones.
    Back in 2015, when this committee was working on a highway 
bill, I pushed for language to be included that would reform 
motor carrier safety scores to make sure that they were more 
reflective of a company's safety record. Just last month, the 
National Academy of Sciences published a report, as required by 
the FAST Act, detailing their findings on the Compliance, 
Safety, Accountability program, more commonly known as CSA.
    Deputy Administrator Jefferson, does FMCSA believe that the 
findings of this report require the Safety Measurement System 
to be replaced with a more defensible statistical model? And, 
if so, what are the agency's specific plans and timetable for 
implementing such a corrective action plan?
    Mrs. Jefferson. Congressman Barletta, FMCSA supports the 
findings of the National Academy of Sciences, and we are 
grateful to the volunteers who worked on that study. It is our 
intent to provide a corrective action plan to Congress within 
120 days of submitting that report.
    We are also working with the Academy of Sciences to 
identify strategies for implementing those recommendations. 
They have given us a roadmap, if you will, of ways to improve 
SMS. And it is our intent to follow through on that. And so, as 
we go through the process of developing an implementation 
strategy, that will get us to a better result. And so we 
appreciate the work that they have done and also our intent to 
include industry and other stakeholders in the process as we go 
along as well, and, of course, keeping Congress aware of our 
actions as we proceed.
    Mr. Barletta. Thank you.
    Thank you, Mr. Chairman.
    Mr. Graves of Missouri. Ms. Titus.
    Ms. Titus. Thank you, Mr. Chairman.
    I would just like to address my question to Ms. Dinh-Zarr. 
You have had the experience both inside the regulatory world 
and outside as an advocate. So I think you bring a special 
perspective to how to make regulation, what it takes to get it 
done, and why you need it, what goes on behind the scenes to 
protect our safety. I raised concerns in this committee a 
number of times about what I think is the President's kind of 
misguided Executive order where he says, for every regulation 
you put in place, you have to eliminate two, this arbitrary 
rule. As you heard from some of my colleagues, regulation has 
become kind of a punching bag, or a dirty word. Where 
regulation is bad, we need to get rid of regulation. They tend 
to forget that regulation is put in place for the safety of 
people who are driving or who are riding on our highways and 
buses and cars and going to school, our children.
    Also, they tend to forget that the regulations that you all 
put in place are the result of legislation that we pass. I have 
got a list of the regulations that were required by the FAST 
Act, just the FAST Act. And I would remind this committee that 
some of the people who are criticizing regulations voted for 
that FAST Act that required you all to put in place these 
regulations.
    So I would just ask you kind of what your perspective is on 
making regulations in this new environment where you have to 
strike two that you thought were good for safety now in order 
to do something else as technology changes, communication 
changes, the world changes. Would you address that for us?
    Ms. Dinh-Zarr. Thank you, Congresswoman Titus, for that 
very complex question.
    Clearly, we are not a regulatory agency. So we are a little 
bit different from my colleagues here on the panel. But the 
recommendations we make do affect regulation. And we are very 
careful about that. We are not for regulation that is unneeded. 
Any recommendations we make that affect regulations are based 
on an investigation of a terrible tragedy, and intended to 
prevent similar tragedies from happening again.
    That said, we also make recommendations that allow other 
options other than regulations. So many of our recommendations 
regarding impaired driving, distracted driving, are targeted 
more toward States, for example. Sometimes it is targeted 
towards companies. Sometimes it is targeted towards 
associations.
    So we seek a balance between ensuring that those 
regulations that are most safety critical do go forward and are 
not delayed. I will give you an example: The safety fitness 
determination. We are very concerned that that delay will 
affect safety because that rulemaking was withdrawn. I hope 
that all of us, no matter where we come from, are prioritizing 
safety in our decisionmaking regarding regulations as well as 
other forms of advancing safety.
    Ms. Titus. Thank you.
    Other members of the panel want to address this from the 
standpoint of your agencies, striking two to do one new one?
    Mr. Waidelich. I think maybe I can just affirm from the 
Federal Highway Administration, I agree that safety is the 
number one priority of the Department, and that does take a 
priority in this two-for-one rule.
    Mrs. Jefferson. We at the FMCSA are reviewing all of our 
regulations. But as we continue to focus on safety, we take 
that into consideration. And so we want to make sure that the 
rules that are in place remain current and relevant but 
continue to focus our attention on safety.
    Mr. Danielson. I would just echo the comments of my 
colleagues.
    Ms. Titus. Thank you.
    I yield back.
    Mr. LaMalfa [presiding]. The gentlelady yields back.
    Mr. Graves from Louisiana is recognized, 5 minutes.
    Mr. Graves of Louisiana. Thank you, Mr. Chairman.
    Mr. Waidelich, in August of last year, in south Louisiana, 
we experienced one of the greatest floods in U.S. history. It 
was about the fourth most expensive flood disaster, according 
to FEMA data. It was, by some measures, estimated to be a 
1,000-year flood.
    If you can put pictures up.
    I want to show you one component. So that is, obviously, an 
offramp. There is the freeway running from the bottom right 
toward the top left, that black strip there. And, obviously, 
that is all water. All that brown is water up there.
    If you go to the next one, that is the interstate right 
there. So the right side is the north side of the interstate. 
The left side is the south side. So that is--I guess the north 
side is the westbound lane, and the left side is the eastbound 
lane.
    You may think that that is a levy in between. That is 
actually a safety wall. You can imagine that--that is actually 
a shopping center in the back right of that.
    If you can go to the next one, I think I have a better 
picture. The next one. Maybe not. Can you go back twice?
    So that is actually a shopping center back there, just to 
give you an idea of how that wall forced the pooling of water 
and exacerbated the flooding in this situation. And, also, all 
up and down the highway here, we had several pockets where the 
interstate was flooded that--I don't remember the number right 
off. I think there were an estimated 1,500 cars that were just 
stuck on the interstate. They couldn't get anywhere because 
there was flooding on either side of them.
    Could you, perhaps, comment on that safety feature? As you 
see, there are no drainage outlets in that. That barrier goes 
on for miles, which also is an impediment to law enforcement 
and emergency vehicles trying to cross over. Does that look 
normal?
    Mr. Waidelich. I would hate to say whether it looks normal 
or not, not knowing specifically what is down there.
    Mr. Graves of Louisiana. I hope it doesn't look normal with 
6 or 8 feet of water----
    Mr. Waidelich. When we have these types of events, it 
allows us to assess those situations with the emergency relief 
dollars and to determine how do we move forward with this into 
the future. As a matter of fact, in the FAST Act, it asked us 
to look at these types of situations where you have repetitive 
type of natural disasters that cause these types of events on 
our roadways and to make those determinations about what to do 
in the future with these, potentially upgrading facilities and 
changing the facilities so it doesn't happen again.
    With that said, we have been having a lot of intense 
weather events over the last several years around the country. 
As we also move forward with the FAST Act implementations of 
asset management, risk-based asset management, my hope is as we 
move to the future and correct these particular roadways, that 
we take that into consideration in these areas where you may 
have evacuation routes and things like that.
    Mr. Graves of Louisiana. This can't be the first time you 
have ever seen something like this.
    Mr. Waidelich. No.
    Mr. Graves of Louisiana. Most of the walls that I have 
seen, well, look, I certainly understand the safety aspects: It 
blocks rubbernecking. It prevents head-on collisions, and 
certainly there is value there. But why there are not drain 
outlets in that wall and why Federal standards would not call 
for certain increment of drainage flow or offsetting walls or 
something in some areas, I simply don't understand. I mean, we 
beg for levees like this all over south Louisiana, and to have 
one on the interstate is crazy. It just doesn't make sense to 
me at all.
    And you have many towns, in Livingston, Walker, Denham 
Springs, even in Baton Rouge, that the flooding was 
significantly exacerbated on the north side of the interstate 
as a result of this safety feature. And so I want to ask if you 
could please go back to Federal Highways and advise us on the 
status of updating standards from lessons learned like this, 
the timeline of that. If you could advise us on how long it is 
going to take to get new standards in place to where we don't 
have situations like this again. And here we are approaching a 
year after the flood, no one has touched the wall. Still there. 
No drainage outlets, no nothing. And, God forbid, we have 
another big flood. But we are down at the bottom of one of the 
largest watersheds in the world, and that certainly is 
possible. Could you do that?
    Mr. Waidelich. I will. I will take that back and get back 
with you.
    Mr. Graves of Louisiana. Great. Thank you very much.
    I have one other question. I am looking at time. I am going 
to go ahead and submit that for the record, related to timing 
of finalizing regulations in the FAST Act.
    Thank you. I yield back.
    Mr. LaMalfa. The gentleman yields back.
    The Chair would like to recognize the gentleman from 
California for 5 minutes, Mr. DeSaulnier.
    Mr. DeSaulnier. Thank you, Mr. Chairman.
    It is such a pleasure to be here serving under your 
chairmanship.
    I want to make sure that my comments are not taken in a way 
that detracts from this historical confidence and 
professionalism of all your agencies. But I am concerned, 
obviously, about the numbers we have in our staff report that 
the increase in fatalities and traffic accidents in the United 
States, from NHTSA, Mr. Danielson, increased so dramatically 
from 2014 to 2015. Over 35,000 Americans lost their lives, one 
every 15 minutes. This is the largest increase over a 1-year 
period in 50 years of recordkeeping. And then the Centers for 
Disease Control, their research showing that we are an outlier 
in that regard when we look at other countries.
    So my question is in context to that. But, historically, 
you have all done a good job. But the urgency of a world that 
is changing so rapidly and your ability to adapt to that. So I 
am going to bring three incidents, areas, just as an 
illustration. I want you to respond to it.
    First, in procurement, I had a constituent die on Highway 
101 in Marin County in northern California some years ago when 
he fell asleep and ran into a guardrail that had been approved 
by NHTSA, built by Trinity Industries. There was subsequently a 
New York Times story, about a year ago, over a $100 million 
judgment against Trinity. The ABC affiliate in San Francisco 
found out that Caltrans had, literally, thousands of these 
modified guardrails that were dangerous to the public and 
turned out to be involved in fatalities around the country, 
litigation against Department of Transportation, Texas, 
Virginia. And my response when I was looking at this in the 
legislature, was from the Secretary of Transportation of--great 
professional in the Brown administration, the director of 
Caltrans, was they relied on NHTSA. And you had approved this. 
And you hadn't responded to it.
    So I bring that in the context of the urgency for you to 
respond to situations like this and the confidence that is 
important for the public and States to have in you, because 
they do. And then so that. So it is more illustrative of the 
story of your ability to adapt.
    And the other two areas, one of which has been brought up 
here extensively about marijuana and the increased use. CRS, I 
have a constituent, Phillip Drum, who, because his sister died 
in an accident that was attributed to someone who was abusing 
marijuana in the other vehicle, made it his cause to come here 
and around the country. But in research we have gotten from the 
CRS because of his questions is that several studies have shown 
that THC in people's blood was roughly twice as likely to be 
responsible for deadly crashes than drugs or alcohol, other 
drugs or alcohol. So the ability for you to respond to that in 
a world where States are approving--Colorado and now 
California--the legalization of marijuana I think it is 
particularly important in the perception that people rely on 
NHTSA to be responsive. So how you can do that and Congress 
can.
    And, lastly, in the area of technology. Having dealt with 
Apple and other providers, it is my belief that technology 
exists right now--and there has been a story, at least in Money 
magazine that Apple believes in their next platform, they will 
have technology so that you can shut down phones when there is 
movement in the car so that they can't receive. And so the 
issue of distraction could be inhibited quite a bit.
    There is currently technology, but it requires a Federal 
Communications Commission waiver that, for less than $30, you 
can put a device in the car so a parent could--and it could 
intercept any kind of transmissions either coming in or out of 
the car.
    So those three instances are just illustrative to me of the 
urgency and the confidence that the public and States need and 
the private sector that you have the ability to respond 
quickly. And the urgency is particularly acute, because if we 
are an outlier, there are lives at risk. Not to indulge in 
hyperbole. So what is it that you think you need from us to be 
able to be more responsive or to communicate more clearly to 
States that there is a danger involved, a prospective danger, 
while you do your due diligence, to legalizing marijuana? There 
is a danger involved if we don't get on top of distracted 
driving. And there may be technology. So how can we prod Apple 
and Samsung to get us that technology sooner rather than later?
    Mr. Danielson. Sir, you raise a lot of really important 
points, particularly about behavioral safety. The one thing--
your point on 2015 and the largest rate increase in 50 years is 
right on. And that is a source of major concern. Historically--
I would just like to, you know, broaden our aperture just a 
little bit. If you go back those 50 years and look at our 
fatality rate at that time, today, we are one-fifth where we 
were 50 years ago. So vehicles are safer. Roadways are safer. 
And the work----
    Mr. DeSaulnier. Mr. Danielson, I don't mean to interrupt 
you. But the first comments I made were meant to address that. 
So we have done really good work. But we have got this anomaly 
right now that I think we have to have a sense of urgency about 
correcting. So I acknowledge what we have done.
    Mr. Danielson. OK. I would like to defer to my colleague at 
Federal Highway on the first issue of the guardrails. And then 
I can address your second and third issue.
    Mr. Waidelich. Let me see if I can address guardrails very 
quickly. There are standards for roadside hardware, and they 
have improved over the years. Our current standard is MASH, 
``Manual for Assessing Safety Hardware.'' It is a national 
standard. It was just recently adopted. The previous one was 
NCHRP 350. Roadside hardware is tested to those standards. That 
is like the laboratory test. I hate to say it and call it that 
way, but it is a controlled test. When that test is passed and 
we at Federal Highway review those test results to ensure that 
it passes, States will use that roadside hardware out if they 
choose.
    You also have to assess in-service performance, 
maintenance, and construction practices that go along with 
this, which may vary from State to State. When it comes to 
guardrail end terminals, we do have an in-service pilot on that 
with four States currently involved in that. And what we have 
found from reviewing those end terminals is that none of those 
end terminals are better or worse than the others. So our 
program is fact-based, and data-driven, and performance-based. 
And without that data showing us that these truly are dangerous 
or more dangerous than what else is out there, we would not 
pull those particular devices.
    Mr. DeSaulnier. So, Mr. Danielson, the Chair is indulging 
me. I appreciate those comments, although we can engage in 
further conversation outside of my limited time.
    Mr. Danielson. OK. On marijuana, as you mentioned, you have 
a number of States that are legalizing marijuana. From 2007 to 
2014, we saw a 50-percent increase in usage. And we know that 
marijuana impairs judgment and impairs driving ability, 
particularly with reaction time. And so our research is geared 
to try and establish a baseline threshold where we can 
establish impairment. Because, right now, we don't have a 
scientifically acceptable threshold for impairment of 
marijuana. And the other technological challenge associated 
with that is the detection of impairment. Even once we have 
that, do we have the technology to test either, you know, oral 
fluids or other biometric features to establish impairment by 
law enforcement officials.
    Right now, NHTSA uses the drug recognition expert program, 
where we train about 8,000 law enforcement officials on a 
battery of tests to basically--because different drugs have 
different effects--to basically establish impairment by various 
drugs. These are court-accepted procedures, but it is very 
complicated. It takes a lot of time to train law enforcement. 
They are very important. But having a device would be very 
important.
    On distraction, you mentioned, just recently, there was 
several press reports about----
    Mr. LaMalfa. We will have to ask that we--but we can have a 
second round of questions, if you care to stay for that. So--
just got to be fair.
    OK. Thank you for--I will recognize now Mr. Faso for 5 
minutes.
    Mr. Faso. Thank you, Mr. Chairman.
    Mr. Waidelich, are you familiar with the issue between your 
agency and New York State relating to certain signage that New 
York State has erected over the last 2 years relating to 
tourism and other travel promotion and other New York State 
promotional signage along State highways, and your agency has 
declared that these signs are not in compliance with regulation 
and is seeking to have New York State remove the signs? Can you 
update--number one, are you familiar with this issue, and can 
you update me on your agency's position on this matter?
    Mr. Waidelich. I am familiar with the issue on signs in New 
York. And we have issues in other States. And we, as an agency, 
work with those States to bring the States back into 
compliance. Currently, we are working with New York to see if 
there is a way we can develop a pilot with those particular 
signs. But, yes, we are working with the State of New York and 
the DOT to do that.
    Mr. Faso. And what is the consequence if New York doesn't 
comply with the regulations?
    Mr. Waidelich. Again, we like to work with the State to 
bring them in compliance, but we do have the ability to 
withhold Federal funds if it comes down to that.
    Mr. Faso. Mr. Chairman, I would like to include for the 
record a letter from Peter Osborn to the commissioner of the 
New York State Department of Transportation, dated May 8, 2017, 
in which it says that they have not received any response from 
the State on this exact issue of the pilot. So I would like to 
follow up with the Acting Administrator on this topic going 
forward.
    Mr. LaMalfa. Without objection.

        [The information follows:]
        
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
        
        
    Mr. Faso. And, Ms. Dinh-Zarr, I had not--I apologize for 
not being here earlier. I was in an Agriculture Committee 
meeting, but I was intrigued by your response on the three-
point safety belt. At what point did the three-point safety 
belts become required by manufacturers in rear seats of 
vehicles?
    Ms. Dinh-Zarr. In passenger vehicles rather than----
    Mr. Faso. Passenger vehicles, yes.
    Ms. Dinh-Zarr [continuing]. Schoolbuses? I should get back 
to you with the exact dates.
    Mr. Faso. My understanding, it was 2008 or 2007 that this 
became required for the rear seats.
    Ms. Dinh-Zarr. I believe that is correct. I suppose NHTSA 
could answer that better. I know a lot of vehicles had them 
long before that. They were voluntarily installing them.
    Mr. Faso. Because I have had some incidents in my district 
where people have regrettably suffered serious injury or even 
fatality only wearing a lap harness, a lap seatbelt, in 
vehicles that were manufactured pre the required deadline. I 
think it was 2008 again.
    Has there been any effort by the agency to try to encourage 
vehicle manufacturers to alert auto consumers of the dangers 
and advise them as to how one might add a rather inexpensive 
safety enhancement to those seatbelts?
    Ms. Dinh-Zarr. The NTSB has not done that. What we did do 
is look at rear occupant protection. And we looked at other 
ways to protect occupants of the vehicle. But it does take 20 
or more years before the fleet overturns. And there are plenty 
of cars that are before that requirement.
    But we did look at, in our rear occupant protection 
workshop, the crashworthiness of the rear occupant area.
    Mr. Faso. OK.
    And, Mr. Danielson, again, I hadn't intended to raise this 
question, but the question on marijuana use and what is the 
definition or the lack of definition of incapacity based upon 
consuming marijuana substances. Is there a standard that we 
should be looking at asking your agency or others to develop as 
to what might be the appropriate level for which we know what 
the blood alcohol count is for alcohol, for instance? What 
should be the standard for marijuana?
    Mr. Danielson. The goal would be to develop a standard, but 
that needs to be developed scientifically so the data--the data 
and technology isn't quite there, and the research isn't quite 
there. But we are working towards that actively. Particularly 
given this data, we try and have our programs be data-driven, 
and so we see these increases, and we want to get on top of 
this. So our research is focused in this area to try and 
establish a threshold.
    Mr. Faso. Could you advise us for the record as to the 
timing on that and whether we should anticipate or whether it 
is appropriate to contemplate legislation in this area? I would 
appreciate that.
    Mr. Danielson. Yes, sir.

        [Please refer to the insert on page 41 for the information for 
        the record.]

    Mr. Faso. Thank you, Mr. Chairman. I yield back.
    Mr. LaMalfa. All right. The gentleman yields back.
    We have an opportunity for an additional round of 
questioning for those that are still here.
    Did you have any more, Mr. Faso, or would----
    Mr. Faso. I am done.
    Mr. LaMalfa. OK. I will turn to my ranking member here.
    Ms. Norton, would you have additional questions in this 
round?
    Ms. Norton. No questions, Mr. Chairman.
    Mr. LaMalfa. OK. Thank you.
    Well, I do. Otherwise, we will be soon finished after that.
    So I want to come back with Mrs. Jefferson, our Deputy 
Administrator there, following up on the ELDs. I ran out of 
time earlier. We know with this mandate coming down the pike 
here for the electronic logging devices that is projected to 
cost around $2 billion to implement as imposed under the 
previous administration, that, again, in my neighborhood, we 
have very many small independent carriers in ag industry and 
the related services they provide between a mill, livestock, 
whatever. And so they are seeing this as a heavy burden. It is 
a little different deal for the large carriers. Many of them 
already use these technologies, as we know. And they are good. 
It is good technology. But, again, the small carriers really 
have a hard time bearing these new costs with a mandate such as 
this. And they don't really see an opportunity for 
compensation.
    But just last night, my understanding, in the THUD, that 
the legislation provided in full committee a 1-year delay of 
the mandate for livestock haulers and, I think, insect haulers 
here, which sounds kind of funny. But that means beekeepers, I 
think, primarily. So that likely gets through here. So is FMCSA 
ready to know the difference between on implementing that for 
livestock haulers for the 150-mile, as the crow flies, 
exemption zone that is being sought and worked through? Will 
they be geared to be able to do that should we complete this 
legislation for that additional delay for those types of 
carriers?
    Mrs. Jefferson. Congressman, there are ag exemptions that 
exist to hours of service and some of those, as you related, to 
the 150 air miles for certain livestock and insects. I am 
assuming bees as well. And those don't change under the ELD 
mandate. ELD is basically the methodology for tracking hours of 
service for those who currently are required to track their 
hours of service. And so exemptions that exist to hours of 
service currently will exist after December 18. And so we will 
continue to work with agriculture and segments of that industry 
that have questions or concerns about the ELD implementation.
    We believe that ELDs will promote safety, making it easier 
to record hours of service for those who are required to 
maintain records of on-duty status.
    Mr. LaMalfa. Well, certainly, no one is against safety, but 
it isn't always easier for everybody to come up with--you know, 
me to mandate. You know, we had some pro-regulation arguments 
here. We have a lot of frustration with regulations. A lot of 
people are looking for flexibility, and they have unique 
situations that they are--you know, were--let's say livestock 
hauling, for example. That is a unique situation where the 
livestock might be at a particular time and weather, what have 
you. And you can't just stop. And other cases too. There are 
other types of industry seeking some types of exemptions too, 
and, you know, rentals and even Government contracting and some 
of the large carriers that have unique delivery needs. So I 
just want to know that FMCSA is looking at some of these. Do 
you see that any further exemption might be granted where these 
folks can prove that the regulation, all well-intended, really 
harms them?
    Mrs. Jefferson. We have a process for those who are seeking 
exemptions.
    As I said, there are currently exemptions to hours of 
service that exist for segments of agriculture. If the request 
is an exemption to the hours of service, they may already 
exist.
    When it comes to being able to meet the compliance state 
for electronic logging devices, our target is December 18. We 
will be happy to follow up and talk about specific issues that 
you may have. We also are providing information, questions and 
answers, on our website. We continue to update those every day 
to make sure that folks understand the upcoming requirements 
for ELDs. We also have information on hours of service that is 
available as well. And----
    Mr. LaMalfa. I just want to--and I am short on time here. 
But I just want the idea that those that are going to be in the 
enforcement capacity will be fully informed of whatever 
exemptions, whether it is the livestock and ag-type one or 
others that may come down the pike, so that people aren't 
getting caught in the middle out there, if they have--if 
enforcers haven't been properly trained on that, you will see 
that that information is out there.
    Mrs. Jefferson. Absolutely. We work very closely with law 
enforcement to ensure they have up-to-date information.
    Mr. LaMalfa. Thank you.
    And, briefly, I want to jump to Mr. Danielson.
    In your opening statement there, you had some very 
interesting information on marijuana and its effects. And we 
have several States now having legalized it, even still in 
defiance of Federal law. And you were talking about impairment.
    Would you recap just for a few seconds impairment and some 
of the other stats you gave in the beginning?
    Mr. Danielson. Yes, sir.
    The bottom line for impairment would--by drugs is that it 
is not well understood because there is not a scientifically--
--
    Mr. LaMalfa. You are talking reaction time is down and----
    Mr. Danielson. Yeah.
    Mr. LaMalfa [continuing]. Awareness?
    Mr. Danielson. So what we do know is that usage rate has 
gone up 50 percent. We also know from laboratory studies that 
marijuana impairs judgment and impairs driving ability, 
particularly reaction time, which makes it dangerous to use 
when driving.
    Mr. LaMalfa. Now, what is the--you have different potency. 
You have different types of ability to ingest marijuana or 
marijuana product. How many hours after it has been used. I 
mean, do you have these kinds of stats that you are working 
forward, you know, with potency? How many hours ago you have 
used it before you would resume driving? What do you have on 
that?
    Mr. Danielson. Well, that would be part of--that would be 
part of the research in order to establish a threshold.
    Mr. LaMalfa. How is your research coming? What do you need?
    Mr. Danielson. That is what I owe for the record. I was 
asked previously to provide some additional information for the 
record on that research.
    Mr. LaMalfa. Would you provide that to my office as well, 
please?
    Mr. Danielson. Yes, sir.

        [The information follows:]

        NHTSA is currently conducting research on the crash risk 
        associated with marijuana use by drivers and methods for 
        identifying marijuana use by drivers at the roadside, including 
        screening technologies and behavioral cues. Information from 
        this research might be used to improve tools for use by 
        criminal justice officials in arresting and prosecuting drugged 
        drivers. Current technology is unable to provide evidence of 
        marijuana impairment by drivers and developing methods that are 
        accurate and reliable will require a significant scientific 
        breakthrough. The timing of such a non-linear scientific 
        advance is uncertain. NHTSA is exploring opportunities to 
        stimulate progress.

    Mr. LaMalfa. What do you need, though, additionally to have 
a handle on this for--in general, for--because we don't seem to 
have clear standards for what a DUI is. And you especially tie 
that to trucking, for example, you got a big problem. Go ahead.
    Mr. Danielson. Because we understand alcohol impairment so 
well, and we have an easy test--drugs are different because 
drugs just--the body reacts to them differently depending on 
the drug. So we have had somewhat of a complex battery approach 
to this where we train law enforcement officers to do roadside 
tests with people who are suspected of drug impairment. As we 
move forward with this research, our hope is that we would have 
something that would be perhaps a device, not unlike a 
breathalyzer, where we could test people for drug impairment.
    Mr. LaMalfa. Yeah. Certainly, it has a couple different 
things. THC, my understanding, goes away right away, but the 
other elements of it stay in the cells of the body much longer. 
And so it sounds like we need more information on how to 
quantify that.
    Well, with that, I will stop there. And so if there is not 
any further questions from any committee members, we will go 
ahead and thank each of you for your time, your appearance, 
your travel for being here today. It has been very helpful and 
a good ongoing discussion.
    So I would ask unanimous consent that the record of today's 
hearing remain open until such time our witnesses have provided 
answers to any questions that may have been submitted to them 
in writing and that unanimous consent--that the record remain 
open for 15 days for additional comments and information 
submitted by members or witnesses to be included in the record 
of today's hearing.
    So, without objection, so ordered.
    If no other members have anything to add, the subcommittee 
stands adjourned.
    [Whereupon, at 12:16 p.m., the subcommittee was adjourned.]
    
    
    

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
  
                                    
                  [all]
</pre></body></html>
